<html>
<title> - REVIEW OF THE NRC'S NEAR-TERM TASK FORCE RECOMMENDATIONS FOR ENHANCING REACTOR SAFETY IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-957]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-957
 
REVIEW OF THE NRC'S NEAR-TERM TASK FORCE RECOMMENDATIONS FOR ENHANCING 
                   REACTOR SAFETY IN THE 21ST CENTURY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAR AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 2, 2011

                               __________

 Printed for the use of the Senate Committee on Environment and Public Works
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                                 



         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-823 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                   
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York
       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BENARD SANDERS, Vermont              LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)
    

                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 2, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James, U.S. Senator from the State of Oklahoma......     3
Carper, Hon. Thomas, U.S. Senator from the State of Delaware.....    10
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    12
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    14
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    15
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    16
Johanns, Hon. Mike, U.S. Senator from the State of Nebraska......    17
Hon. Frank Lautenberg, U.S. Senator from the State of New Jersey.    18
Hon. John Boozman, U.S. Senator from the State of Arkansas.......    19
Hon. Jeff Sessions, U.S. Senator from the State of Alabama.......    20

                               WITNESSES

Jaczko, Hon. Gregory B., Chairman, Nuclear Regulatory Commission.    21
    Prepared statement...........................................    23
    Responses to additional questions from:
        Senator Boxer............................................    33
        Senator Caper............................................    47
    Responses to additional questions from Senator Cardin........    52
    Responses to additional questions from Senator Inhofe........    53
Svinicki, Hon. Kristine L., Commissioner, Nuclear Regulatory 
  Commission.....................................................    65
    Responses to additional questions from:
        Senator Boxer............................................    66
        Senator Carper...........................................    67
        Senator Inhofe...........................................    69
Apostolakis, Hon. George, Commissioner, Nuclear Regulatory 
  Commission n...................................................    71
    Responses to additional questions from:
        Senator Boxer............................................    72
        Senator Carper...........................................    73
        Senator Inhofe...........................................    75
Magwood, Hon. William D., Iv, Commissioner, Nuclear Regulatory 
  Commission.....................................................    76
    Responses to additional questions from:
        Senator Boxer............................................    77
        Senator Carper...........................................    79
        Senator Inhofe...........................................    81
Ostendorff, Hon. William C., Commissioner, Nuclear Regulatory 
  Commission.....................................................    82
    Responses to additional questions from:
        Senator Boxer............................................    83
        Senator Carper...........................................    86
        Senator Inhofe...........................................    89


REVIEW OF THE NRC'S NEAR-TERM TASK FORCE RECOMMENDATIONS FOR ENHANCING 
                   REACTOR SAFETY IN THE 21ST CENTURY

                              ----------                              


                        TUESDAY, AUGUST 2, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
                                Subcommittee on Clean Air  
                                        and Nuclear Safety,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Sessions, Carper, 
Lautenberg, Alexander, Sanders, Barrasso, Udall, Johanns and 
Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning.
    Senator Carper is the Chair of the Subcommittee. I am 
delighted that he is here, and, of course, we have a good 
turnout considering at noon we have a crucial vote. So we are 
going to move forward.
    Today is the fourth time the Members of this Committee have 
gathered in this room to discuss nuclear safety following the 
disaster in Japan. Since our first briefing on March 16th, I 
have asked the NRC to heed the wake-up call and reevaluate our 
current safety and security measures that are at our nuclear 
power plants. I especially wanted them to look at our power 
plants that are located in areas that face the possibility of 
natural disasters such as earthquakes and flooding.
    California's two nuclear power plants at Diablo and San 
Onofre are located in seismically active areas, and I want to 
repeat that any task force recommendations be implemented as 
soon as possible since millions of people live close to those 
plants, millions and millions of people.
    The NRC has begun to act. First, NRC ordered inspections on 
the 104 operating nuclear reactors and issued reports on their 
readiness to address power losses and damage following extreme 
events. More recently, NRC issued the results of its near-term 
90-day task force review. I understand that the six-person task 
force that conducted the review was made up of senior NRC staff 
with more than 135 years of combined expertise, but they did 
not rely on their experience alone.
    The task force also had full access to all NRC staff and to 
all experts as they prepared their report. The task force found 
``continued operation and continued licensing activities do not 
pose an imminent risk to public health and safety.'` That means 
that the task force found that no plants needed to be 
immediately shut down, but problems were identified.
    The task force has highlighted some issues that should be 
addressed right now as we speak, while further study and 
analysis is needed before other recommendations can be 
implemented. Last month, I sent a letter to Chairman Jaczko in 
which I urged the commission to act promptly on the near-term 
task force recommendations. Their near-term recommendations, 
they need to be implemented now in the near term.
    I support the Chairman's road map for action within 90 days 
and I will ask the commission to move forward expeditiously. It 
took 90 days for the task force to make their recommendations. 
It should not longer than 90 days for the NRC to accept or 
reject them and move toward implementation. Any stalling will 
not be viewed favorably by the American people I can assure 
you. Their confidence in nuclear power is waning.
    The task force concluded that the NRC ``The NRC's safety 
approach is incomplete without a strong program for dealing the 
unexpected, including severe accidents. Continued reliance on 
industry initiatives for a fundamental level of defense in 
depth similarly would leave gaps in the NRC regulatory 
approach.'`
    These findings are important. Although the task force 
stated that an accident like what happened in Japan is unlikely 
in the U.S., they did conclude changes should be made to our 
regulatory system to improve safety. They further concluded we 
cannot count on voluntary industry initiatives to provide the 
necessary level of safety.
    The Japanese were not prepared for the disaster that hit 
them on March 11 th. That is the lesson learned from Fukushima. 
We can't afford to make the same mistake. We should make 
improvements that will enhance safety and preparedness for 
unforeseen disasters.
    To that end, the NRC's 90-day review includes important 
recommendations. They should move quickly to implement the 
safety recommendations contained in the report or we are 
wasting taxpayer dollars and money. In addition, I believe more 
work should be done as part of the longer-term review to 
address moving spent fuel to dry cask storage and other issues 
that were not fully addressed.
    Today, I call on the commission to announce a plan for 
adopting the task force recommendations, and I am not alone in 
my call for action. A July 23d New York Times editorial stated, 
``If nuclear power is to have a future in this Country, 
Americans have to have confidence that regulators and the 
industry are learning the lessons of Fukushima and taking all 
steps necessary to ensure safety. They went on to say, ``This 
month, NRC's near-term task force issued thoughtful and common 
sense recommendations. The five commissioners should quickly 
adopt them.'`
    A July 17th editorial in The Washington Post stated, ``The 
NRC should use this review not merely to respond to a single 
event, but to ensure that it is actively assessing low 
probability but high consequence risks.'`
    On July 19th, 15 nongovernmental organizations, including 
the Union of Concerned Scientists and the Natural Resources 
Defense Council, sent a letter to the NRC urging them to act to 
implement the recommendations. And more recently, on July 28th, 
my colleague, Senator Mark Kirk of Illinois was reported as 
saying, ``The bottom line is we cannot let the lessons learned 
from Fukushima become a forgotten story by dragging our feet on 
some of these critical short-and long-term improvements that 
can be made now.'` I couldn't agree with him more.
    For both the safety and confidence of the American public, 
the NRC must act without delay. It is not acceptable now that 
we have the results of the task force review to merely call for 
more study and further delay. And I look forward to hearing 
each of you make a commitment that you are ready to move on 
their recommendations. You must act now that you know what some 
of the problems are. It is your moral and your legal 
responsibility, and I consider it mine as well.
    I now call on Senator Inhofe.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First, I would like to put into the record the letter from 
Marvin Fertel, the President of the Nuclear Energy Institute, 
NEI. I will just read one sentence, the second paragraph. It 
says, ``The task force report lacks the rigorous analysis of 
issues that traditionally accompanies regulatory requirements 
proposed by the NRC.'` I would like to put it into the record.
    Senator Boxer. Absolutely, in the record.
    [The referenced document follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Inhofe. And I think on this report of the full 
commission, actually we have this as a joint Committee. It is 
the full Committee and the Nuclear Subcommittee, which I used 
to Chair a few years ago.
    Chairman Jaczko relayed in our June hearing how as a part 
of the review, and I am going to quote him at this time, he 
said, ``We always ask ourselves the question: Are the plants 
still safe? Is there anything we need to do today to address 
that? And the answer continues to be no, that we want to get 
good information. We have time to do that.'`
    And I agree. It might be a while until we have an adequate 
assessment of the event, but we have time. And frankly, we need 
to take time to ensure that we learn the right lessons; that 
any regulatory changes have the maximum benefit to safety.
    In that spirit, the task force describes how following the 
Three Mile Island event, the NRC took a number of actions which 
were not subjected to structured review and which were 
``subsequently not found to be of substantial safety benefit 
and removed.'`
    I am pleased to see that a majority of the Commissioners 
are committed to ensuring that the task force recommendations 
proceed through a structured review process that incorporates 
the views of a wide range of agency staff, the NRC's Advisory 
Committee on Reactor Safeguards, industry and other 
stakeholders. Meanwhile, a full commission can take action at 
any time should new safety information warrant.
    There are many facts that we still don't know about the 
accident, not just about the technical aspects, but also 
emergency preparedness and the impact of external influences on 
decisionmaking. It is important to remember that the Japanese 
regulatory system is very different from our own. I believe it 
is crucial for the NRC to understand those differences in order 
to assess whether proposed regulatory changes will accurately 
and adequately address the actual problems highlighted by the 
Fukushima accident.
    Accordingly, I have sent a letter to each of you and look 
forward to receiving your responses. I was pleased to see 
Commissioner Svinicki endorse that concept. I was also 
disappointed to hear from the Chairman that he considers it too 
``difficult and time-consuming.'`
    I don't believe that an accident in a country with 
different regulatory systems and practices means that ours are 
broken. I think the NRC must take time to learn not just the 
technical lesson from Fukushima, but also the regulatory and 
policy lessons, and I hope the NRC will focus on solving 
specific safety weaknesses highlighted by the Fukushima event, 
rather than allowing itself to become distracted by redesigning 
a regulatory framework that has served our Country very well.
    The NRC's efficiency principle and good regulatory practice 
states, ``regulatory action should be consistent with the 
degree of risk reduction they achieve.'` A structured process 
akin to the comments of Commissioners Magwood, Svinicki and 
Ostendorff goes a long way toward doing that.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the state of Oklahoma

    Thank you for holding this hearing today with the full 
Commission to review the Near-Term Task Force's report--this is 
a good first step toward understanding the implications of the 
Fukushima nuclear accident. The Commission directed the Task 
Force to identify near-term or immediate operational and 
regulatory issues, and their report concludes that the 
Fukushima scenario is unlikely to happen here and that 
continued nuclear power plant operation and licensing 
activities do not pose an imminent risk to the public.
    Chairman Jaczko relayed in our June hearing how, as part of 
the review, ``we've always asked ourselves the question: Are 
the plants still safe? Is there anything we need to do today to 
address that? And the answer continues to be no. That we want 
to get good information, we have time to do that.'' I agree. It 
may be a while until we have an adequate assessment of the 
event but we have the time, and frankly need to take the time, 
to ensure we learn the right lessons and that any regulatory 
changes have the maximum benefit to safety.
    In that spirit, the Task Force describes how, following the 
Three Mile Island event, the NRC took a number of actions which 
were not subjected to a structured review, and which ``were 
subsequently not found to be of substantial safety benefit and 
were removed.'' I am pleased to see that a majority of the 
commissioners are committed to ensuring that the Task Force's 
recommendations proceed through a structured review process 
that incorporates the views of a wide range of agency staff, 
the NRC's Advisory Committee on Reactor Safeguards, industry, 
and other stakeholders. Meanwhile, the full Commission can take 
actions at any time should new safety information warrant.
    There are many facts that we still don't know about the 
accident, not just about the technical aspects but also 
emergency preparedness and the impact of external influences on 
decisionmaking. It is important to remember that the Japanese 
regulatory system is very different from our own. I believe it 
is crucial for the NRC to understand those differences in order 
to assess whether proposed regulatory changes will accurately 
and adequately address actual problems highlighted by the 
Fukushima accident. Accordingly, I have sent a letter to each 
of you and look forward to receiving your responses. I was 
pleased to see Commissioner Svinicki endorse that concept. I 
was also disappointed to hear from the Chairman that he 
considers it too ``difficult and time-consuming''.
    I don't believe that an accident in a country with 
different regulatory systems and practices means that ours are 
broken. I think the NRC must take the time to learn, not just 
the technical lessons from Fukushima, but also the regulatory 
and policy lessons. I hope the NRC will focus on solving 
specific safety weaknesses highlighted by the Fukushima event 
rather than allowing itself to become distracted by redesigning 
a regulatory framework that has served this country well. As 
the NRC's Efficiency Principle of Good Regulation States: 
``Regulatory actions should be consistent with the degree of 
risk reduction they achieve.'' A structured process akin to the 
comments of Commissioners Magwood, Svinicki, and Ostendorff 
goes a long way toward ensuring that.
    Senator Boxer. Thank you.
    I am going to call on the Subcommittee Chair and then the 
Ranking Member, and then the rest of our colleagues.
    Senator Carper, Subcommittee Chair.

           OPENING STATEMENT OF HON. THOMAS CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair.
    Commissioners, welcome. Nice to see all of you today. This 
is a day that the economy could have melted down, and it looks 
we are going to be able to avoid that. And we want to make sure 
that the recommendations that these smart people at work at the 
Nuclear Regulatory Commission, that we can somehow seize the 
opportunity, seize the day and ensure that we don't have a 
meltdown in any our 104 nuclear power plants. But I am happy 
that you are here and look forward to this testimony.
    These are challenging times for the NRC. They have been, 
frankly, challenging times for my colleagues and me as well. 
And we are going to get through this day and hopefully we will 
get through to your recommendations and you will pick some that 
are the winners and the ones that we ought to implement sooner, 
rather than later, and we can get this show on the road.
    As many of you know, my interest in nuclear energy comes 
from a clean air and energy security perspective. It also comes 
from a perspective of 23 years as a Naval Flight Officer 
chasing nuclear submarines. And a lot of my buddies in the Navy 
lived on nuclear power plants on submarines and aircraft 
carriers and ships. So I have a lot of interest from that 
perspective as well.
    But nuclear power has helped this Nation curb our reliance 
on dirty fossil fuel. Nuclear power has also helped to reduce 
air pollution that damages our health and causes global 
warming. However, as we saw the crisis unfold at Fukushima 
facility, one wrong step at a nuclear power plant can have big 
and bad consequences. This crisis is a strong reminder that 
with nuclear energy, we never be complacent. Safety must always 
be our top priority.
    Today, I look forward to hearing an update from our 
Commissioners regarding their reviews of our Nation's nuclear 
power fleet in light of the crisis at Fukushima. I especially 
look forward to hearing more about the recent task force 
recommendations and hope to learn today how the Commissioners 
expect to move forward on them.
    I was relieved that the task force concluded that an 
accident like Fukushima is unlikely to happen in the United 
States and the nuclear fleet posed no imminent risk to public 
safety, which is due in part to the due diligence of the NRC to 
protect public safety.
    But as our colleagues have heard me say once or twice, I 
believe it is not perfect and we need to make it better. And I 
believe the task force took this thing to heart that we can do 
better. And I believe we can all agree some of the task force 
recommendations are common sense and should be implemented 
soon, maybe sooner than others.
    I would liken these recommendations to patching up a hole 
in a boat that is slowly leaking. There are easy no-brainers 
and it can be done with relative ease. Some of the 
recommendations are going to need more time, maybe much more 
time, and a fair amount of vetting. These recommendations are 
more like taking the boat apart and putting it back together. 
Definitely, more time is needed and more thought is needed on 
some of those and how we ought to go about doing them.
    I sincerely hope the commission will take time to talk to 
stakeholders and get public reaction from all sides of this 
issue before moving forward with these recommendations. 
However, I will be disappointed if we are 6 months or a year 
from now down the road and have not seen any action from the 
NRC on any of these recommendations. That would not sit well 
with me and I would urge you to keep that in mind.
    We need to all work together. I would like to say we are 
all in this together and we need to make sure that we 
incorporate the right lessons learned to keep our nuclear fleet 
safe into the future because, in the end, we are all in the 
same boat when it comes to nuclear safety.
    Thank you, Madam Chair, and again welcome.
    [The prepared statement of Senator Carper follows:]

             Statement of Hon. Thomas Carper, U.S. Senator 
                       from the state of Delaware

    ``Let me begin by welcoming back the Nuclear Regulatory 
Commission's (NRC) Commissioners to our Committee. I know these 
are trying times for the NRC, and I appreciate you taking the 
time to be before us today.
    ``As many of you know, my interest in nuclear energy comes 
from a clean air and energy security perspective. Nuclear power 
has helped this nation curb our reliance on dirty fossil fuels. 
Nuclear power has also helped reduce our air pollution that 
damages our health and causes global warming.
    ``However, as we saw the crisis unfold at the Fukushima 
Daiichi facility, one wrong step at a nuclear power plant could 
have big consequences. This crisis is a strong reminder that 
with nuclear energy, we can never be complacent. Safety must 
always be our top priority.
    ``Today, I look forward hearing an update from the NRC 
Commissioners regarding their review of our nation's nuclear 
power fleet in light of the crisis at Fukushima. I especially 
look forward to hearing more about the recent Task Force 
recommendations. I hope to learn today how the Commissioners 
expect to move forward on those recommendations.
    ``I was relieved that the task force concluded that an 
accident like Fukushima is unlikely to happen in the United 
States and that our nuclear fleet poses no imminent risk to 
public safety. This is due in part to the due diligence of the 
NRC to public safety. But as my colleagues have heard me say 
over and over, I believe if it is not perfect, make it better. 
And I believe the task force took this saying to heart. We can 
do better.
    ``I believe we can all agree that some of the task force 
recommendations are common sense and should be implemented 
soon. I liken these recommendations to patching up a hole in a 
boat that is slowly leaking--these are no brainers and can be 
done easily. And some of the recommendations are going to need 
much more time and vetting. These recommendations are more like 
taking the boat apart and building it back together. We 
definitely need more time and more thought on this issue.
    ``I sincerely hope the Commission will take time to talk to 
stakeholders and get public reaction--from all sides of this 
issue--before moving forward with any of the recommendations. 
However, I will be very disappointed if we are 6 months or a 
year down the road and have not seen any action from the NRC on 
any of the recommendations.
    ``We all need to work together to make sure we incorporate 
the right lessons learned to keep our nuclear fleet safe into 
the future, because in the end, we are all in the same boat 
when it comes to nuclear safety.''
    Senator Boxer. Thank you.
    It is my pleasure to introduce John Barrasso, the Ranking 
Member of the Subcommittee.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. I 
appreciate that. I thank you. I thank Chairman Carper as well 
for holding the hearing today on the near-term task force 
report entitled Recommendations for Enhancing Reactor Safety in 
the 21st Century.
    In reviewing the report, there are a couple of points that 
I believe need to be stated that come from the report itself. 
And first, our regulatory framework to protect our nuclear 
plants is working. It is working. As the task force concludes, 
although complex, the current regulatory approach has served 
the commission and the public well, and allows the task force 
to conclude that a sequence of events like those occurring in 
the Fukushima accident is unlikely to occur in the United 
States and could be mitigated, reducing the likelihood of core 
damage and radiological releases.
    As Commissioner Ostendorff, who is before us today, stated 
on July 19th, ``I do not believe that our existing regulatory 
framework is broken.'` I agree. I do not believe that our 
existing regulatory framework is broken.
    Second, our regulatory system is quite different than 
Japan's. I agree with Commissioner Ostendorff's opinion with 
regard to the conclusions in the task force report that the 
Fukushima tragedy occurred in another country whose regulatory 
structure is quite different from that found in the United 
States and that ``there is still a great deal that we do not 
know about Fukushima concerning the sequence of events, the 
failure of modes of equipment, functionality and execution 
procedures.'`
    Because of the reasons that I have just mentioned, with so 
much uncertainty still remaining, I find the report to be light 
on suggested recommendations directly tied to the events at 
Fukushima. Instead, this report appears to be loaded with 
recommendations to overhaul our entire system of oversight and 
safety.
    I agree with Commissioner Svinicki, who commented in her 
recent vote that the task force report recommendations are 
surprisingly specific and detailed for what was to be an 
initial 90-day review. In fact, the document is 82 pages long.
    I am not surprised, however, if you put six career 
regulators in a room for 90 days, that you are going to get a 
lot of suggestions for more Washington red tape, 
recommendations that appear to be based on old agendas. This is 
what I believe we have here before us today. Some of these 
recommendations may be good and worth pursuing. Some may not 
be.
    But as Commissioner Svinicki stated about the 
recommendations in the report, ``Lacking the NRC technical and 
programmatic staff's evaluation, beyond that of the six NRC 
staff members who produced the task force report, I do not have 
a sufficient basis to accept or reject the recommendations of 
the near-term task force. There is no immediate threat that 
needs to be addressed, according to the task force, so we do 
have time.'`
    There is no need to rush to regulate. Before we move 
forward with more red tape for America's nuclear industry, 
perhaps we need to look at these suggestions more closely. I am 
not advocating for a few NRC public meetings to simply check a 
box. I am talking about real NRC staff and stakeholder input 
through an open and transparent process where recommendations 
can be reviewed, prioritized and eventually either approved or 
rejected, which is essentially what Commissioner Magwood has 
said in his letter of July 29th to Congressman Markey.
    This is the type of review that I believe four of the NRC 
Commissioners before us today are advocating.
    So I thank you, Madam Chairman, and look forward to the 
testimony.
    Senator Boxer. Thank you, Senator.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you very much, Madam Chair, for 
holding this important hearing, and thank you to the members of 
the NRC for being here.
    The first and I think most important point that I want to 
make is the function of the NRC is not to represent the nuclear 
power industry. That is not your job. Whether we have more 
nuclear power plants or fewer is not your job. Your job 
foremost is to make sure that the nuclear power plants that we 
have in this Country are as safe as humanly possible.
    My friend from Wyoming, Senator Barrasso, mentioned, he 
quoted the report and the report said it is unlikely that we 
are going to have a Fukushima disaster in this Country. Well, 
you know what? For the people of Vermont, and I think most 
people in this Country, unlikely is really not quite good 
enough. We want to make sure that everything humanly possible 
that can be done is done to make sure that nuclear power and 
the nuclear power plants in this Country are as safe as 
possible.
    Madam Chair, to the Commissioners here today, it seems to 
me we should take note of the Associated Press, this very 
disturbing report that recently found that the NRC and the 
nuclear industry have worked ``in tandem to weaken safety 
standards to keep aging reactors within the rules.'` In that 
regard, I have joined with the Chair of our Committee, Senator 
Boxer, to call for a GAO investigation of these allegations.
    Americans are concerned about nuclear safety not just 
because of the AP investigations, but because of what happened 
in Japan. We have 23 reactors in this Country that are Mark I 
models, the same as the Fukushima plant. The President asked 
the NRC for a safety review after Japan and the NRC's task 
force of senior staff did a 90-day review and laid our 
recommendations to improve safety. They did what they were 
asked to do.
    A New York Times editorial summarized, ``The group's most 
important finding is that our Nation's oversight of nuclear 
power plants is a less than rigorous patchwork of mandatory and 
voluntary provisions.'` The task force recommendations include 
no-brainer measures to test earthquake and flood resiliency and 
to install hardened vents to reduce the risk of hydrogen 
explosion.
    We are here today to find out what the NRC is going to do 
about these 12 common sense recommendations. Some people may 
think that this is ``government red tape.'` Some of us believe 
that in fact we have got to do everything we can to make sure 
that the impossible does not happen and that a major nuclear 
accident occurs in the United States.
    The answer, from what I am hearing up to this point, from a 
majority of the members of the NRC is that nothing is going to 
happen with regard to these recommendations. The Chairman has 
asked the NRC to begin to move forward on all 12 
recommendations within 3 months in order to fully implement new 
post-Fukushima regulations by 2016, and I applaud him for doing 
that. This does not sound very ambitious to me, yet the media 
reports that this timeframe is apparently too ambitious for 
three of our Commissioners, and I hope they dispel what I read 
in the media, and that is Commissioners Svinicki, Magwood and 
Ostendorff apparently, as I understand it, they want more study 
and review and delay.
    And I happen to know, have been here long enough to know 
what happens in this town when we ``delay,'` when we want to 
postpone a study. It means that the issue is going to be swept 
under the rug, that nothing is going to happen. And to me, that 
is unacceptable.
    We need a commission focused on safety and acting on the 
task force recommendations in a swift and transparent manner. I 
believe we should all demand that the NRC commissioners today 
commit to start action on the safety recommendations within 3 
months. Delay is not an acceptable option, and I look forward 
to hearing from the Commissioners.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chairman, and thank you 
for this hearing.
    Thanks to the Commissioners for their service.
    I think it is always useful since safety is our concern to 
begin with the safety records: no deaths at any commercial 
nuclear reactor; no deaths on any Navy reactor; and no one was 
even hurt at our most celebrated nuclear accident, Three Mile 
Island. That is an enviable record which we should always try 
to improve.
    And I would like to approach it a little differently today. 
I would like to ask this question: What if we didn't have 
nuclear power? What if we didn't have it at all in the United 
States? It is 20 percent of all of our electricity; 70 percent 
of all our clean electricity. We use about a quarter of all the 
electricity in the world to power this County. What if we 
didn't have nuclear power?
    Well, we can look at Japan, which is the third-largest 
economy, and get an idea of that. There were a couple of 
articles last week, one in The Wall Street Journal, one in 
Bloomberg, which gave us a picture of it. The Wall Street 
Journal article did say the Japanese are very patient people, 
so they have turned their air conditioners up to 82 degrees. 
The reason all this is true is because since the earthquake, 
most of their reactors are out. They have closed them down for 
maintenance and to check them.
    And so they have lost about 20 percent of all their 
electricity in Japan, about the same amount that nuclear power 
provides to us. So their air conditioners are at 82 degrees. 
The car-makers are operating on weekends to avoid sucking up 
electricity during the week. The Emperor and the Empress are 
wandering around the Imperial Palace at night with flashlights 
and candles. Emergency responders have brought 22,000 people to 
the hospitals with heat stroke. It is about the same weather 
over there as here.
    They are expecting electric bills to go up because as they 
use more renewable power, that is higher cost. Bloomberg was 
even more graphic. It quotes the Chairman of Sharp, a company 
that has a plant in Tennessee making solar panels, that the 
issue of the power supply could be the end of manufacturing in 
Japan, an exodus of Japanese manufacturers, he sees. ``If we 
don't keep these reactors operating,'` he said, ``Japan's 
economy will wither. Our young people will move abroad leaving 
the country with only grandpas and grandmas.'`
    The Japanese Chamber of Commerce, estimates that Japan's 
gross domestic product will fall by 3.6 percent, lose 200,000 
jobs if all of the reactors close by next spring as scheduled 
maintenance takes them offline.
    So there is a little snapshot of what would happen if you 
lose 20 percent of your electricity, which is what nuclear 
power provides us. Why do I raise that? Because, as was said, 
we have an aging nuclear fleet. We haven't built a new reactor 
in 30 years; 25 or 30 years from now, this commission will have 
to decide whether to extend the life of a lot of the older 
reactors. I have advocated building 100 new nuclear reactors 
over the next 20 years, and even if we did that, we would still 
barely replace the reactors that we have and the need for 
electricity in this Country because the EIA, the Energy 
Information Administration, estimates that the increase in the 
need for electricity will be up by 31 percent.
    So we are going to need a lot of clean, reliable 
electricity in this Country. And we can't afford, if we want to 
have a high standard of living and good jobs, to lose 20 
percent or 10 percent of our electricity. And if we don't have 
nuclear power, we will have to rely on coal that is dirtier; on 
gas that is dirtier; and who knows what the price of gas will 
be. And the idea of relying on windmills to power the United 
States of America is the energy equivalent of going to war in 
sailboats.
    So we are going to need lots of nuclear power. And as long 
as we are having eloquent testimony about delays here, which I 
just heard, I would like to recommend we have no delay in one 
of the other recommendations of the Committee, which is to 
complete without delay the design for the AP 1000 and the 
economically simplified boiling water reactor design.
    In other words, complete without delay this commission's 
approval of those two designs so that we can move ahead 
building a sufficient number of nuclear reactors to give us the 
kind of clean, reliable electricity that will permit us to have 
the low-cost energy to have good jobs in the United States and 
not experience the kind of exodus of manufacturing overseas 
that the Japanese are afraid might happen to them if they are 
not able to bring their reactors back online.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair, and thank you for 
calling this hearing.
    I think many others have said it already that I think 
safety is the key here and I am going to want to hear from each 
of you as to how you believe we should move forward on the 
safety issue. I think it is unacceptable if we have the kind of 
thing happen in the United States that happened in Japan, and I 
hope that you are on a wavelength, that you are going to move 
in the direction of taking seriously what this task force said.
    I mean, my understanding is that this is a task force with 
a 139 years of experience in this area. They are substantial. 
They are people that really know what they are talking about. 
We talk about recommendations that fall into five categories. 
These categories seem very common sense to me, clarifying the 
regulatory framework. You have to take a hard look every now 
and then at regulatory frameworks and how they work.
    Ensuring protection, the task force recommends under that 
category as part of a longer-term review, the NRC evaluate 
potential enhancements to the capability to prevent or mitigate 
seismically induced fires and floods. We have seen in New 
Mexico those kinds of fires and floods. I know they are seeing 
them across the Midwest. We need you to take a hard look at 
that.
    The third category, enhancing mitigation, the task force 
recommends the NRC strengthen station blackout mitigation 
capability at all operating and new reactors for design basis 
and beyond design basis external events. I hope that we will 
have time to discuss that with you. I intend to ask a question 
about that.
    Strengthening emergency preparedness, the fourth category, 
seems very common sense to me and something we could move 
forward with on this front. And the fifth, improving the 
efficiency of NRC programs, I mean, we always want to be doing 
things like that.
    So I am not going to use all my time. I want to get to the 
questions, Madam Chair, and I yield back at this point.
    Senator Boxer. Next is Senator Johanns.
    Thank you so much for being here.

            OPENING STATEMENT OF HON. MIKE JOHANNS, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Johanns. Thank you, Madam Chair.
    To the Commissioners, let me just start out and tell you we 
appreciate your being here with us today. So many things were 
said by Senator Alexander that I concur with that it would 
almost be sufficient to say that I adopt his statement, but let 
me offer a thought or two, if I might.
    I am very anxious to hear about the safety concerns. We 
have nuclear power, as you know, in the State of Nebraska. It 
has been a good neighbor in our State. We feel it runs 
sufficiently smartly. We feel that the folks who are operating 
the facilities in our State are responsive to the community. I 
would be remiss if I didn't mention the quality jobs that go 
with the facilities. All of that has worked very well for us.
    The second thing I would say about that is, as you know, 
for many months now we have been in the throes of a historic 
flooding event with the Missouri River in Nebraska, and that 
has implicated our nuclear facilities. We have found you folks 
to be responsive, the staff to be responsive, and it has been 
an experience that although difficult and trying, because so 
much land has been under water for so long, we feel in terms of 
the nuclear facility that people have responded and not 
overreacted, but worked with us.
    Therefore, I am very anxious to hear about the safety 
recommendations. I don't think there is any doubt, wherever you 
sit on this dais, we want to make sure that our facilities are 
safe.
    But I would also offer a thought that there is a reason why 
we are not building nuclear power plants these days in any kind 
of numbers. When I talk to folks in this industry, they say it 
is complicated. It is very difficult to get through the 
process. It is enormously expensive and there is no guarantee 
that you are going to get anything at the other end for that 
massive, massive investment.
    There seems to me a better way of doing this. Now, this is 
not an area of expertise for me. I have no nuclear background 
whatsoever in my life. But having said that, what I am anxious 
to hear about today is the economic of what you are 
recommending just because I want a full picture. Sometimes you 
have to make hard decisions, do the things that you need to do 
from a safety standpoint, even though you know that the cost is 
there, but there is just no other choice.
    But for me, I always like to weigh the decisions made 
against the cost that is incurred and try to get an 
understanding of whether we have benefited the situation in any 
significant way for the investment. This industry, I worry, is 
literally at a point where it could shut down over time if we 
can't somehow free up the ability to approve plants and approve 
construction and deal with the safety issues in a cost-marked 
sort of way.
    So those are the kinds of things I am interested in. But I 
don't say those things to criticize you. Like I said, our 
experience in working with the Nuclear Regulatory Commission 
has been a good experience. People have worked with us and the 
staff has worked with us. I am just interested in how do we do 
this in a way that is safe, but economically viable.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman.
    And thank you, members of the NRC. I think you do a very 
good job, I will start off with that, and then I will get more 
critical, but we do thank you.
    Since Japan's nuclear crisis began unfolding 5 months ago, 
Americans have wondered, could it happen here? The NRC's task 
force studied the situation closely and determined our nuclear 
facilities pose no imminent threat to the American people.
    While this is reassuring news, our work is just beginning. 
The NRC task force issued 12 recommendations to strengthen 
nuclear safety and ensure reactors remain safe, including long-
term steps to improve emergency preparedness and protect 
facilities when earthquakes or other natural disasters occur.
    Now, it is critically important for the Nuclear Regulatory 
Commission to act on these recommendations quickly. The five 
Commissioners will hear today are from among our Country's most 
important guardians, and we are relying on you to keep our 
Country's nuclear facilities safe and secure.
    Prompt action on the recommendations to the NRC is 
particularly important to the people of my State of New Jersey, 
where four nuclear power reactors provide our State with half 
of its electricity. Just last month, the NRC renewed the 
license to operate the reactor at Hope Creek which shares the 
same design as the damaged reactors in Japan.
    Now, in its renewal, the NRC included conditions intended 
to make Hope Creek safer and we have to continue to take every 
precaution to make sure this facility and others like it are as 
safe as we can make them. The fact is, nuclear power plays a 
great role, a critical role in our Country and it is an 
emissions-free energy source that provides one-fifth of our 
Nation's electricity.
    So nuclear power can continue to be a part of our energy 
future, but the disaster in Japan has taught us nothing can be 
taken for granted where nuclear power is concerned. Japan is a 
world leader in technology and its leaders believed that 
Fukushima, the plant, was very strong, strong enough to 
withstand a worst-case scenario. But as we now know, it wasn't.
    Likewise, the Chernobyl tragedy 25 years ago taught us that 
the effects of a single nuclear accident can linger for 
generations and we have to pay attention to these questions and 
learn from others' mistakes. This means continually revisiting 
the laws intended to keep nuclear plants safe, strengthening 
the NRC's regulations, and ensuring plants are in compliance at 
all times.
    The NRC has got to ask the hard questions and make sure the 
American people get the answers that they deserve, and I urge 
you Commissioners to act quickly, to take the next steps to 
make sure that nuclear facilities are prepared and that the 
public is fully protected.
    Thank you.
    Senator Boxer. Thank you.
    Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Madam Chair and Ranking Member 
Inhofe for having this really important hearing on the task 
force review.
    The task force has produced a report that is a good first 
step to help make sure our nuclear industry continues to be the 
safest in the world. Nuclear energy provides an affordable, 
reliable, emissions-free supply of energy to power our economy 
and create jobs, especially industrial and manufacturing jobs 
that are power-intensive.
    We need to learn and implement both short-term and long-
term lessons from the event in Japan. Safety must remain our 
highest priority, and I think that all of us agree with that. 
American nuclear energy is produced with oversight from a 
strong, independent regulatory agency within a robust culture 
of safety. Our industry is truly the gold standard and we need 
to keep it that way.
    The task force review confirmed that appropriate mitigation 
measures have already been put in place and that continued 
operation and licensing activities do not pose an imminent risk 
to public health and safety. I would very much like to 
encourage the commission that as they move forward that they do 
so with speed, but more importantly, or as importantly that 
they do this very, very thoughtfully. We need a process that 
allows the commission, the NRC staff, the industry and other 
stakeholders to be fully engaged.
    With that, I yield back. Thank you, Madam Chair.
    Senator Boxer. Thank you so much.
    Now, Senator Sessions, you are our last, but certainly not 
least.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you.
    We spend a good deal of time on this Committee and other 
Committees in rightly considering the events at Fukushima. The 
report of the near-term task force provides a good starting 
point to thinking about potential improvements that can be made 
on our nuclear fleet.
    But I do think it is important to keep in mind, as Senator 
Alexander noted, that we have not had one single event at an 
American nuclear power generating plant where an individual has 
lost their life or sustained a serious injury as a result of 
nuclear effects.
    So I think that is a significant thing that we need to 
remember since over 20 percent of our electricity is coming 
from nuclear power. It is a big part of our economy and it has 
been very safe. I really think we need to remember that. How 
many lives have been lost in the process of creating coal 
plants and providing the fuel? And how many problems have we 
had with natural gas and difficulties and lives have been lost? 
And most provide CO2 and other pollutants into the atmosphere.
    I am interested, as Senator Inhofe is, in looking at the 
Japanese system to see if theirs was less effective than ours. 
NEI, Nuclear Energy Institute, says that we have the gold 
standard for nuclear regulation and I hope that is true, and we 
would like it to be true. And we need to know if perhaps our 
regulations would have prevented this.
    Certainly, nuclear plants already must demonstrate to the 
satisfaction of you, the NRC, that the plants can continue to 
operate safely even during a blackout scenario. And I do 
believe, as Senator Alexander noted, the AP 1000, for example, 
would have gravity-fed fuel or water processes that would shut 
down a plant even if there was complete loss of power and the 
backup failed.
    So those would be even safer plants, it seems to me, and 
those ought not to be unnecessarily delayed. Delays are costs. 
And you delay and create uncertainty, and pretty soon people 
are afraid to invest what would need to be invested for us to 
create a cleaner, more productive form of energy that is safer, 
in bottom line, than other forms of energy for the United 
States.
    My goal has always been that we should have cleaner energy. 
We want American energy, not imported, wherever possible. We 
want safe energy. We want cost-efficient energy, energy that 
does not place an unnecessary burden on our people and our 
economy.
    Nuclear power fits all of those, it seems to me. It may not 
be the total solution, but it fits all of those policies and I 
hope and pray and urge that you do your job to make sure we are 
safe, make sure it is operating safely, but do not be a burden 
on our ability to meet the need for increased electricity in 
the future by blocking a reasonable development of new sources 
of nuclear power.
    I notice in Alabama we had a shutdown of power. We had 
power failures to our nuclear plant at Brown's Ferry, the TVA 
plant. The backup systems responded just as expected, just as 
required, just as you have monitored and required, and there 
was no dangerous scenario that occurred.
    I also appreciate the fact that your committee has found 
that there is no reason to doubt the safety of our nuclear 
power facilities. Your task force report concludes that a 
sequence of events like the Fukushima accident is unlikely to 
occur in the United States. Continued operation and continued 
licensing activities do not pose an imminent risk to public 
health and safety.
    So Madam Chairman, thank you for having the hearing. I 
think it is something that we need to move forward with. 
Hopefully, we can be able to effectively allow a new generation 
of even more efficient, more safe nuclear power plants to come 
online, plants that produce tremendous amounts of baseload 
electricity without pollution of our atmosphere and that 
provide safety to all concerned.
    Senator Boxer. Thank you so much, Senator.
    So under the agreement that we have reached, the Chairman 
will have 5 minutes and each of his colleagues will have three. 
Is that your understanding? OK, excellent.
    Chairman, go right ahead.
    I am going to ask everyone to stick with their time because 
we are so close to a vote and we want to conclude before then.
    So go right ahead.

    STATEMENT OF HON. GREGORY B. JACZKO, CHAIRMAN, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Jaczko. Chairman Boxer, Ranking Member Inhofe, Chairman 
Carper, and Ranking Member Barrasso and members of the 
Committee, on behalf of the commission I appreciate the 
opportunity to appear before you to discuss the NRC's near-term 
task force recommendations and their potential implementation.
    In the aftermath of the Fukushima accident, the commission 
established the task force to spearhead our systematic and 
methodical review of the NRC's Nuclear Reactor Safety Program. 
Its members include some of the agency's most experienced and 
expert staff, collectively having more than 135 years of 
regulatory experience.
    In conducting their review, the task force's efforts were 
independent, but by no means isolated or solitary. In 
developing their report and recommendations, the task force had 
access to the entire NRC staff with more than 100 hours of 
briefings.
    They also spent thousands of hours reviewing agency 
products and information and consulted with the NRC site team 
in Japan. In its report, the task force outlined a 
comprehensive set of 12 recommendations, many with short-and 
long-term elements that touch on a broad range of important 
issues, including the loss of electrical power, earthquakes, 
flooding, spent fuel pools, venting and emergency preparedness.
    I provided a detailed overview of the recommendations in 
the written testimony I submitted on behalf of the commission. 
As their report makes clear, the task force has done an 
outstanding job of helping us better understand what nuclear 
safety requires in a post-Fukushima Dai-ichi world.
    Now that the task force has completed its review, it is up 
to the commission to decide how to move forward. A wide range 
of stakeholders have called upon the commission to act 
promptly. At this point, the commission has not yet reached a 
decision on how to proceed.
    And although my colleagues may hold differing viewpoints, I 
believe our goal remains for the commission to come to an 
agreement on an open and transparent way for us to make a 
merit-based decision on the 12 recommendations in a finite 
period of time.
    In considering the task force recommendations, the 
commission must move forward with the urgency called for by 
these real safety issues. Although the task force did not find 
imminent risk to public health and safety, they identified 
significant concerns with specific issues and they recommended 
improving the agency's regulatory framework.
    Fukushima clearly demonstrated that extraordinary 
circumstances can challenge plants in unexpected ways and we 
must commit to a strong and timely response. I believe that the 
American people expect no less.
    So to all the Members of the Committee, I thank you for the 
opportunity to appear before you and I would be happy to answer 
any questions you may have.
    Thank you.
    [The prepared statement of Mr. Jaczko follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Boxer. Thank you.
    Commissioner Svinicki.

 STATEMENT OF HON. KRISTINE L. SVINICKI, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Svinicki. Thank you very much. Thank you, Chairman 
Boxer, Ranking Member Inhofe, Chairman Carper and Ranking 
Member Barrasso and other Members of the Committee for the 
opportunity to appear before you today.
    The members of NRC's near-term task force covered 
tremendous ground in the conduct of their 90-day review. After 
a more extensive examination than earlier NRC efforts were able 
to undertake, the task force concluded that a sequence of 
events like the Fukushima accident is unlikely to occur in the 
United States and that continued operation and continued 
licensing activities do not pose an imminent risk to public 
health and safety.
    In providing this safety reassurance to the commission and 
the public, the task force's work, conducted with some urgency 
given their mission of finding any near-term deficiencies or 
confirming the safety of continued operations, now allows the 
NRC the opportunity to proceed with the systematic and 
methodical review of lessons learned that the commission 
established early on.
    I believe that wise regulatory decisions depend on public 
participation and on careful analysis of the likely 
consequences of regulation. The NRC is now in a position to 
conduct activities that the task force's short timeframe did 
not allow them to undertake, namely a more extensive public 
stakeholder engagement on these issues and others that will 
likely emerge, and opportunities to consider a comprehensive 
set of facts regarding the events in Japan, and to receive the 
expert views of the commission's Advisory Committee on Reactor 
Safeguards.
    In that vein, I view the near-term task force report as an 
important first step in the process of learning from the events 
at Fukushima. The conclusions drawn by the six individual 
members of the near-term task force must now be open to 
challenge by our many public stakeholders and tested by the 
scrutiny of a wider body of experts, including the NRC's 
technical staff who would be responsible for carrying out the 
changes the commission might adopt prior to final commission 
decisionmaking on those changes.
    I support acting with the appropriate dispatch and urgency, 
but without short-changing the thoroughness, inclusiveness and 
deliberation of our response.
    Thank you again for this opportunity and I look forward to 
answering your questions.
    [The prepared statement of Ms. Svinicki follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Senator Boxer. Thank you.
    The Honorable George Apostolakis.
    How did I do on that one? We met in California so I had a 
chance to practice that.
    Go ahead.

  STATEMENT OF HON. GEORGE APOSTOLAKIS, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Apostolakis. Chairman Boxer, Ranking Member Inhofe, 
Chairman Carper, Ranking Member Barrasso and members of the 
Committee, good morning. I appreciate the opportunity to appear 
before you today. My views regarding the way forward with the 
near-term task force recommendations are summarized as follows.
    First, it is important to bear in mind the significant task 
force conclusion that the current regulatory system has served 
the commission and the public well, and that a sequence of 
events like those that occurred in Fukushima is unlikely to 
occur in the United States.
    Second, many people have referred to the events at 
Fukushima as unthinkable or unforeseen and imply that we should 
focus on protecting nuclear plants from unimaginable events. 
However, there is growing evidence that the historical record 
of tsunamis had not been used properly to determine the design 
basis of Fukushima Dai-ichi and consequently the protection of 
the plant was not sufficient.
    In addition, the location of safety significant equipment 
was less than optimal with respect to protection against 
flooding. The accident was not of extremely low probability. 
That is, it was not unthinkable or unforeseen. These 
observations suggest that we should be mindful of striking a 
proper balance between confirming the correctness of the design 
basis and expanding the design basis of U.S. plants.
    Third, the timely disposition by the commission of the 
near-term task force recommendations is important. It is also 
important to do this in an open and transparent manner. Three 
months should be sufficient time to achieve these objectives.
    Fourth, our process for reaching decisions should be 
methodical and systematic. The Three Mile Island experience is 
relevant here. As the task force states, ``Some of the actions 
taken by the NRC after TMI were not subjected to a structured 
review. Subsequently, some of the resulting requirements were 
found not to be of substantial safety benefit and were 
removed.'`
    Fifth, with these recommendations in mind, I believe that 
the commission's deliberations would benefit from an evaluation 
of the task force recommendations by NRC management, the views 
of external stakeholders, and an independent evaluation by the 
Advisory Committee on Reactor Safeguards. These reviews may in 
fact result in additional or different recommendations.
    I will be working with my fellow Commissioners to reach a 
timely resolution of the lessons learned from Fukushima.
    Thank you.
    [The prepared statement of Mr. Apostolakis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Boxer. Thank you very much.
    And now we look to Commission member William Magwood.

STATEMENT OF HON. WILLIAM D. MAGWOOD, IV, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Magwood. Thank you. Thank you, Chairman Boxer, Ranking 
Member Inhofe, Chairman Carper, Ranking Member Barrasso. I 
appreciate the opportunity to appear before you today.
    Soon after the seriousness of the events at Fukushima 
became evident, the commission created a task force to study 
this and apply any lessons learned. After nearly 4 months of 
work, this task force has provided us with the recommendations 
we have discussed this morning.
    I congratulate the six-person team for its impressive work 
and I also want to just sort of point out that Dr. Charles 
Miller, who chaired the task force, is with us in the audience 
today somewhere back there, and I wanted to just make mention 
of the fact that I think tomorrow is his retirement date. So 
this is his opportunity to observe his work.
    Senator Carper. Can we ask him to raise his hand?
    Thanks for your service.
    Mr. Magwood. Thank you, Charlie.
    Nevertheless, while the task force found that U.S. plants 
are safe and they say that quite clearly. Their conclusion that 
the U.S. plants are safe is not a license for complacency. 
There are very clearly some important lessons learned from 
Fukushima that can be used to further improve our regulatory 
framework, and the task force has made the 12 recommendations 
we have spoken of this morning.
    Obviously, the task force was limited in its time and scope 
and its ability to reach out to stakeholders and the Advisory 
Committee on Reactor Safeguards. Fortunately, since the task 
force found no imminent risk to public health or safety, we 
have the opportunity to apply our resources and processes to 
best effect and deal with issues such as the potassium iodide 
and other issues which were not covered by the task force in 
open and transparent manner.
    We must work quickly and effectively to engage our 
stakeholders in consideration of the task force's 
recommendations, as well as consideration of approaches which 
the task force did not have time or resources to analyze.
    I also believe that while there are many who believe that 
we should move very quickly on every recommendations, I think 
what Senator Carper said this morning is actually quite 
apropos. There are some recommendations which I believe can be 
implemented almost right away, and I think the votes of the 
commission so far have indicated that that is possible.
    There are others that may take some more time, and I think 
we should take that time to do this the right way and not 
repeat the mistakes of the post-Three Mile Island era.
    So with that, I look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Magwood follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Boxer. Thank you.
    Mr. Ostendorff, welcome.

STATEMENT OF HON. WILLIAM C. OSTENDORFF, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Ostendorff. Madam Chairman, Ranking Member Inhofe, 
Chairman Carper, Ranking Member Barrasso, Members of the 
Committee, thank you for the chance to be before you today.
    I highly commend the NRC's near-term task force for its 
dedication, thoughtfulness and professionalism in conducting 
its review. Given a very short period of time, the task force 
has provided a very significant product that will serve us 
well.
    Before forming my position on the task force report, I 
carefully studied the report. I met with the task force in a 
public meeting. I sought input from NRC staff. And I listened 
to the views of my colleagues at this table. I cast my vote on 
the task force report last Wednesday and made that vote 
publicly available.
    Serving, in my view, as the anchor for this report are 
findings related to the safety of commercial reactors in the 
United States. The task force noted that the current regulatory 
approach has served the commission and the public well, and the 
continued operation and continued licensing activities do not 
pose imminent risk to public health and safety.
    As I stated at the commission's July 19th public meeting on 
the task force report, while I support thoughtful consideration 
of potential safety enhancements in a systematic and holistic 
manner, at the same time I do not believe that our existing 
regulatory framework is broken.
    My vote is centered on three key principles. First, the 
need to ensure that we have an integrated, prioritized approach 
based on recommendations by the NRC's Executive Director for 
Operations. The failure to have such an approach was a key 
lesson learned from NRC's response to the events at Three Mile 
Island and was stated by the EDO, Bill Borchardt, who is here 
today as a concern that he had going forward with Fukushima 
when we had our public meeting March 21st.
    Not all the 12 task force recommendations that have 35 
subparts are equal, neither in safety enhancement or urgency 
perspective.
    Second, some actions should be taken sooner than others. My 
vote cast last week supports the EDO coming back within 30 days 
with a list of recommendations warranting short-term actions. I 
specifically called out in my vote from last week six discrete 
actions that I think should happen now. There are perhaps 
others. I look forward to hearing from the EDO as to what those 
recommendations might be from an integrated prioritization 
standpoint.
    Third and finally, I join with my colleagues at the table 
in supporting the full engagement by our stakeholders. That is 
absolutely critical.
    I appreciate the Committee's oversight and interest in this 
area and I look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Ostendorff follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you very much.
    Each of us will have 5 minutes.
    We are not dealing here with safety issues that are 
relatively straightforward like seatbelts. We know it is 
essential people buckle up. We know they save lives. What we 
are dealing with here is potentially fatal doses of radiation 
if you don't do your job right and we don't do our jobs right.
    And today, the New York Times had a story here, Fatal 
Radiation Level Found At Japanese Plant. They said the operator 
at Tokyo Electric Power said that workers on Monday afternoon 
found an area near reactors numbers one and two where radiation 
levels exceeded their measuring device's maximum reading of 10 
sieverts per hour, a fatal dose for humans.
    So when I hear colleagues call, and this is my 
interpretation of what they said, not far off, recommendations 
for safety, more Washington red tape, I believe that is what 
the Ranking Member said, more Washington red tape. I can tell 
the people in Japan would have got down on their knees and 
prayed God that they had more safety measures in place.
    So I want to ask some questions here. The task force 
recommends requiring hardened vent designed in Mark I and Mark 
II reactors. Now, the reason is that what happened in Japan is 
the fuel in the reactors of units one, two and three became 
partially uncovered which led to a buildup of hydrogen gas. 
Japanese tried to vent the gas, but because the vents were not 
working, explosions occurred in all three units. Those units 
were Mark I reactors, and we know some of the Mark II reactors 
have made some safety improvements.
    But the task force recommends requiring hardened vent 
designs in Mark I and Mark II reactors. It is important to note 
only three reactors in America have installed hardened vents. 
There are five remaining reactors who have. Now, why do we have 
to wait before we implement that recommendation?
    So I am going to ask each of you: Do you think we ought to 
move on that recommendation to harden, to move forward with 
this recommendation of the hardened vent designs?
    I just want a yes or know or don't know.
    Mr. Jaczko. Yes, I think that is a fine recommendation.
    Senator Boxer. OK, I don't want any editorial comment, yes 
or no or don't know.
    Ms. Svinicki. I don't know at this time.
    Senator Boxer. OK. Next?
    Mr. Apostolakis. Sounds reasonable.
    Senator Boxer. Yes.
    Mr. Magwood. I can't answer at this point.
    Senator Boxer. OK.
    Mr. Ostendorff. I support assessing our venting capability 
and accessibility. The task force report noted that they did 
not have a clear understanding of whether the operators were 
able to actually operate the vents. So there is more 
information to be gleaned here.
    Senator Boxer. I take it as a no.
    It is not good news from this commission. Can I ask each of 
you, what is your purpose that when you became a commission, 
what was your highest duty, in a word?
    Mr. Jaczko. Public health and safety protection.
    Senator Boxer. Yes.
    Ms. Svinicki. The safety and security of nuclear material.
    Senator Boxer. Yes.
    Mr. Apostolakis. Public health and safety.
    Mr. Magwood. Protect health and safety.
    Mr. Ostendorff. Public health and safety.
    Senator Boxer. Good. Well, then I would like you to 
consider looking at what happened in Japan and looking at the 
similarities that we see in some of our plants and move on it.
    And let me tell you why I am concerned. After 9/11, the NRC 
took seemingly decisive action, I want you to listen to this. I 
hope the public is listening to this. You ordered U.S. nuclear 
power plants to take a series of improved security measures 
because we worried about a terrorist attack. And in my home 
State, they were handing out iodine pills. That is how worried 
they were about it because we had millions of people that live 
within 50 miles of power plants.
    The NRC later codified those orders in regulations. You 
know when? With compliance required by March 31st, 2010, from 
2001 to 2010.
    Now, I want assurances from each of you that you will not 
allow that to happen. And I want to hear from you as to whether 
or not you believe we can move on these recommendations and put 
them in place within a year.
    Mr. Jaczko. Yes, I believe we can move on them within 90 
days and have full implementation with potentially long-term 
recommendations in 5 years.
    Senator Boxer. OK. So let's ask 90 days if we can move on 
these, most of these recommendations and put them in place in 
90 days. There is a yes from the Chairman.
    Yes.
    Ms. Svinicki. I don't believe that all can be acted on in 
90 days.
    Senator Boxer. How many? How many do you think could?
    Ms. Svinicki. I am not certain. I have proposed that we 
receive an evaluation.
    Senator Boxer. So you don't know.
    Next.
    I am sorry. My time is over. Go ahead.
    Mr. Apostolakis. I agree with the Chairman that we should 
disposition all of them within 90 days.
    Senator Boxer. Excellent.
    Sir.
    Mr. Magwood. I certainly think some of them could be 
dispositioned within 90 days. It is hard to say that all of 
them could, but some of them certainly could.
    Senator Boxer. Thank you.
    Sir.
    Mr. Ostendorff. I agree with Commissioner Magwood.
    Senator Boxer. Thank you.
    OK. My time is up.
    Senator.
    Senator Inhofe. Thank you, Madam Chairman.
    You might recall when we had our June meeting, I had an 
Armed Services commitment that kept me from being here, so I 
asked Senator Barrasso if he would ask Chairman Jaczko to 
provide a full account of the actions he took while exercising 
his emergency authority as provided in Section 3 of the NRC's 
reorganization plan of 1980. To date, I have not received such 
a report.
    Section 3 states, ``Following the conclusion of the 
emergency, the Chairman shall render a complete and timely 
report to the commission on the actions taken during that 
emergency.'` Let me start by asking each one of you, except for 
Chairman Jaczko, the question: Has Chairman Jaczko provided 
such a report?
    Let's start with you.
    Ms. Svinicki. I have not received a report.
    Senator Inhofe. You have not.
    Mr. Apostolakis. I have not.
    Mr. Magwood. I have never seen a report.
    Mr. Ostendorff. I have not.
    Senator Inhofe. The second thing I would ask you is: Has he 
informed you that he has ceased using his emergency authority?
    Ms. Svinicki. He has not informed me of that.
    Mr. Apostolakis. He has not.
    Mr. Magwood. He has not.
    Mr. Ostendorff. He has not.
    Senator Inhofe. OK. Then I would have to assume that he is 
still using the emergency. You know, this is kind of very 
confusing.
    Mr. Jaczko. Senator Inhofe, would you like a response?
    Senator Inhofe. Not yet.
    Well, if you want to extend my time, that is fine. Go 
ahead.
    Senator Boxer. Sure, I will extend your time.
    Senator Inhofe. All right.
    Mr. Jaczko. My colleagues have all been informed.
    Senator Inhofe. It might be better if I finish then he can.
    Senator Boxer. Fair enough.
    Senator Inhofe. All right. So I have to assume that he is 
still using, I mean since they haven't received, and I do want 
to do this because I think it needs to be in the record. None 
of us were around at that time, but in 1980 when this emergency 
provision was passed by law, and it was Toby Moffett. He was a 
Democratic Congressman from Connecticut.
    And I am going to read this because I think it is important 
to have this in the record. This is from over 30 years ago: 
``There will be two situations in the future, those where the 
Chairman is in basic agreement with the majority and those 
where he or she is not. In those cases where the Chairman has a 
majority of Commissioners with him or her, it is obvious that 
the Chairman will not need the extraordinary powers tucked away 
in this plan to work his or her will. The Chairman and the 
commission can move in unison toward their chosen regulatory 
policy.'`
    ``But what about the other situation, where the Chairman is 
in the minority, regardless of party affiliation, within the 
commission, when the majority of the commissioners oppose the 
Chairman? Isn't it equally obvious that if will be at that 
moment that these special powers will be most appealing to the 
Chairman? Isn't it clear that if these powers are ever to be 
needed and utilized at all, it is precisely by the Chairman 
bent on going against a majority of the commissioners. And if 
that be the case, is this plan not clearly constructed to gut 
the commission form of regulation and would it not be subject 
to the basest sort of partisan political manipulation?'`
    That was over 30 years ago. And I would just have to say, 
before you make your comments, Chairman Jaczko, I would like to 
get a commitment from you that you will respect the will of the 
commission majority on this report and all other issues and 
that you will not attempt to act unilaterally to implement any 
of these task force recommendations.
    Do you feel comfortable making that commitment here in this 
hearing?
    Mr. Jaczko. Of course, everything I do I do consistent with 
that.
    Senator Inhofe. All right.
    Mr. Jaczko. With regard to the emergency powers, the 
commissioners personally have been briefed by me on ths status 
of our situation. We no longer have our emergency operation 
center activated, which is a clear signal that there would be 
no emergency powers.
    Senator Inhofe. But Chairman Jaczko, that is not what they 
said. They said they have not been notified by you.
    Mr. Jaczko. Which is a true statement. But for one to infer 
that they are not aware of the status of the agency and whether 
or not, as I believe you indicated, you were therefore assuming 
that I am continuing to use emergency powers, I don't believe 
that that is a fair assumption. The commission is fully aware. 
Their staff is briefed on a weekly basis on our response 
activities related to Japan. They were provided situation 
reports throughout the entire activity of everything that was 
going on.
    Moreover, they have received a report that you have all 
received, the task force report which summarizes and looks at 
the actions that were taken following the Fukushima incident.
    So to somehow infer that the commission is being kept in 
the dark about what is going on at the agency is simply not 
true. They have been receiving multiple briefings, many 
briefings, including public commission meetings.
    Senator Inhofe. So all four of them were not telling the 
truth when they answered the question, have they received a 
report.
    Mr. Jaczko. I simply can't speak for them, but they 
certainly have received many reports about what we have done 
following Fukushima, including the report that you see in front 
of you. If that is not a report summarizing actions and 
recommendations going forward, I don't know what would be. And 
that is one of the clear requirements of the report in the 
statute. So their response I cannot explain.
    Senator Inhofe. Well, I think I can.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    OK. How about a smile from everybody here. Can you do that? 
Not quite.
    Senator.
    Senator Carper. We don't always smile either up here.
    Senator Boxer. We try to. The Chairman and I do.
    Senator Inhofe. We do.
    Senator Boxer. We do.
    Senator Carper. I am sitting here listening to this and I 
am reminded of something my mother used to say with respect to 
moving along expeditiously on these recommendations or not. My 
mother used to say, haste makes waste. My father, on the other 
hand, would say that work expands to fill the amount of time we 
allocate to a job. And so I had like one parent pushing on the 
accelerator and one parent tapping on the brakes, which is not 
a bad combination.
    It sounds to me like that is a little bit like what we want 
to do here, or what the commission thinks we ought to do here. 
In some cases, some of the recommendations we can push on the 
accelerator, and with some others we can tap on the brakes.
    I think one of the things I like to do around here is try 
to encourage consensus across the aisle, and I am going to try 
and see if we can get some consensus here with respect to some 
of these recommendations.
    Mr. Magwood, you mentioned that you thought there were some 
of these recommendations that could be implemented pretty much 
right away, and there are others that would take some time. 
Would you mention a couple of the ones that fall into the 
implement right away category for us please?
    Mr. Magwood. Well, I have generally tried not to point out 
specific recommendations because I would like to let the 
process work its way. But just to anticipate, a clear example I 
think are what we call the walk down inspections to confirm 
that the plants are prepared to deal with a flood and seismic 
events. I think that is an obvious one that can be done very 
quickly.
    Commissioner Ostendorff in his vote highlighted I think 
about a half dozen. I am in general agreement with what he 
recommended. There are others. I think ultimate action on 
events, for example, are ones we have to study and understand 
very carefully before those are implemented, but that doesn't 
mean it has to take years to do it. It simply may not be 
possible in a few weeks.
    So I think many of these could be implemented very quickly. 
And let me just share just personally because I have talked 
with other members of the commission. I have absolutely no 
sense that there is anyone on the commission that wants to 
delay this unnecessarily. I think everyone is looking at this 
very seriously and wants to move forward as quickly as 
practical, but we want to make sure the process is done 
correctly.
    Senator Carper. OK. Good. Well, that is encouraging.
    Mr. Ostendorff, did I hear Commissioner Magwood say the 
Ostendorff half dozen? Is that what he said?
    Mr. Ostendorff. Yes, sir.
    Senator Carper. All right.
    Mr. Ostendorff. Real quick, I will just summarize some of 
those. There are six things that I think could be done very 
quickly here and decided on in a matter of weeks. I put those 
in my vote from last week.
    The first is reevaluate the seismic and flooding hazards at 
all sites against current NRC requirements; second, perform, as 
Commissioner Magwood mentioned, seismic and flood protection 
walk-downs to look at any plant-specific vulnerabilities; 
third, issue an advance notice of rulemaking to address long 
loss of A.C. power, this is the station blackout rule we 
discussed at the last hearing.
    Fourth, review what is called B(5)(b), our fire and 
flooding protection equipment to ensure that they can withstand 
a seismic event or flooding, and also we have additional 
equipment in the event of a multi-unit accident; fifth, review 
the venting capability and accessibility of vents on Mark I and 
Mark II boiling water reactors; and sixth, maintain and train 
on severe accident management guidelines.
    Those are examples of things I think can be done right 
away.
    Senator Carper. What was the sixth one?
    Mr. Ostendorff. We have severe accident management 
guidelines that guide our licensees as to how to deal with a 
catastrophic event. Making sure that those are in good order 
and the people are fully trained in those is a high priority.
    Senator Carper. OK. All right.
    Let me just go right down the line here. We will start with 
you, Mr. Chairman, if you will.
    Would you want to kind of react to the Ostendorff half 
dozen please?
    Mr. Jaczko. Well, I certainly don't have any disagreement. 
I would note that I think beyond that, there really aren't that 
many recommendations that the task force recommended for near-
term action. So I think some of this discussion is really about 
semantics. But four of the 12 recommendations themselves were 
long-term recommendations. Two of them were specifically 
targeted toward NRC action in and of itself. So there are 
actually only six recommendations that are actually directed 
toward licensees in the short term.
    Senator Carper. And were those six the ones that 
Commissioner Ostendorff mentioned?
    Mr. Jaczko. They were a subset of that. They are smaller. 
The ones that appear to be missing were recommendations related 
to spent fuel pools and the need to have reliable monitoring 
and capability to deal with spent fuel pools, which I think is 
one that most people would agree is an action that we would 
want to address in the near term.
    I don't think there are that many left once we take those 
particular issues that we can't get all this work done in 90 
days.
    Senator Carper. OK. My time is expired.
    Just really quickly, Commissioner Svinicki and Commissioner 
Apostolakis, would you like to just give me some indication of 
whether you are pretty much in agreement that Commission 
Ostendorff's list of half dozen is easily on the money there or 
has he overstated the case?
    Ms. Svinicki. I would just add quickly that I did not have 
any negative reaction to the task force's recommendations. I 
agree that they are of varying complexity. And I think that my 
proposal was to hear from those NRC staff who would be 
responsible for carrying out such actions, and I think the 
recommendations when shaped through the NRC programmatic 
offices may come back to us slightly different. I would like to 
do it maybe once and do it right, as opposed to continually 
iterating. I think prolonged uncertainty about these 
recommendation is very undesirable.
    Senator Carper. OK.
    Dr. Apostolakis.
    Mr. Apostolakis. Well, all I am saying in my vote is that I 
would like to have the opinion and judgment of the senior 
management before we go ahead. That doesn't mean it is going to 
take forever to get that, but this sounds like a reasonable 
list, but I would like to have this additional input before we 
make a decision.
    Plus, senior management may come up with additional 
recommendations that can be implemented immediately. I don't 
think we should limit ourselves to what the task force said.
    Senator Carper. OK.
    Thanks very much.
    Senator Boxer. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Chairman Jaczko, how involved were you in the selection of 
the six members of the six members of this near-term task 
force?
    Mr. Jaczko. I was not involved.
    Senator Barrasso. Not involved?
    Mr. Jaczko. I mean, I believe the EDO may have told me the 
list of people that would be on it and I think I OKed it.
    Senator Barrasso. Were you involved in any way or shape or 
form in the deliberations of the task force?
    Mr. Jaczko. No, not at all. I spoke to them before they 
began their work and told them they had a tremendous 
responsibility to do and they should do it the best they could.
    Senator Barrasso. The task force report talked about a 
patchwork of requirements flowing from the current regulatory 
program. Do you agree with the implication that our current 
regulatory program of nuclear safety in the United States is 
defective or not working?
    Mr. Jaczko. I don't believe that is what the task force 
said. The task force said we have a patchwork. I think the 
inference that it is defective therefore is not true. It is 
true that we have a patchwork of regulations. That is what the 
task force indicated. We have some things that, for instance if 
you just look at emergency procedures. We have emergency 
procedures that fall into three classes, the standard emergency 
procedures that we call emergency operating procedures. We then 
have procedures for severe accidents. And then we have 
procedures dealing with what we call essentially the September 
11th actions.
    Each one of those has a different regulatory treatment, but 
all three of them are likely comparable in their importance and 
should be integrated into a whole process of procedures. So 
that was the patchwork that existed. Each of those came out of 
a particular incident. The severe accidents came out of the 
1980's and when we recognized that there was a need to have a 
better preparation for severe accidents. The last, the 
extensive damage mitigation guidelines came out of September 
11th.
    So there was never an effort to look at those in a holistic 
way as part of a unified set of procedures. That is simply what 
the task force is recommending. And in some cases, some would 
get greater regulatory treatment than they get right now, in 
particular the severe accident management guidelines.
    Senator Barrasso. Commissioner Ostendorff, you stated in 
your notation vote response sheet that the NRC is an agency 
that ``prides itself on openness and transparency.'` You also 
referenced that the NRC has principles of good regulation that 
you use in your decisionmaking.
    If the NRC simply has a couple of public meetings on these 
task force recommendations, would that suffice to meet the 
goals of openness and transparency and meet the standard of the 
NRC principles that you referenced?
    Mr. Ostendorff. Senator, thank you for the question. I 
think public meetings are a very key component of that effort. 
We had a public meeting just last Thursday at the NRC which I 
think is a very good start. I think all the Commissioners here 
support the Chairman's call for open and public meetings as 
being a very key component.
    There is also the discussions that will happen outside of 
public meetings that will help inform the prioritization that 
these individual recommendations should receive.
    Senator Barrasso. OK. And you said that you didn't believe 
that the existing regulatory framework is broken. Is this 82-
page report larger in scope than maybe you expected, given that 
statement?
    Mr. Ostendorff. If I can, Senator, address that comment. I 
agree with all of what the Chairman said just a few minutes ago 
on his characterization of the patchwork comment. I think there 
has been a dynamic evolving buildup of regulations in response 
to events. And so I don't think that the patchwork is a fair 
characterization itself, but I think the Chairman's explanation 
is correct here.
    I think it is something that we ought to look at, but I 
don't think it is something that is an immediate concern that 
would suggest our existing regulations are not safe and proper.
    Senator Barrasso. Thank you very much.
    And then Commissioner Svinicki, if I could, you said in 
your vote ``lacking the NRC technical and programmatic staff's 
evaluation'` beyond that of the six NRC staff members. You said 
``I do not have a sufficient basis to accept or reject the 
recommendations of the near-term task force.'`
    In your opinion, how can we achieve a sufficient basis of 
knowledge to then make that decision about accepting or 
rejecting these recommendations?
    Ms. Svinicki. I had made a proposal to my colleagues which 
is not yet decided upon, but it would be that the NRC 
programmatic staff would take these recommendations and within 
45 days come back to the commission with a prioritization and a 
plan for how the agency might move forward to get that more 
complete evaluation. They could also at that time identify the 
more straightforward recommendations and how they would propose 
to move forward on those more quickly.
    So I did not think it needed to take an excessive amount of 
time.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Sanders.
    Senator Sanders. I will just start again by telling you how 
I begin my thinking. I am going back to the AP article, June 
20th, 2011. Federal regulators have been working closely with 
the nuclear power industry to keep the Nation's aging reactors 
operating within safety standards by repeatedly weakening those 
standards or simply failing to enforce them, an investigation 
by the AP has found.
    Now, throughout this discussion, I probably a half dozen 
times Members of the Committee have quoted the statement in the 
task force which says that the task force which says that the 
task force concludes that a sequence of events like the 
Fukushima accident is unlikely to occur in the United States.
    We have heard that a half dozen times, but we haven't heard 
the paragraph before that. And the paragraph before that says, 
this regulatory approach established and supplemented piece by 
piece over the decades, has addressed many safety returns and 
issues using the best information and techniques available at 
the time. The result is a patchwork of regulatory requirements 
and other safety initiatives, all important, but not all given 
equivalent consideration and treatment by licensees or during 
NRC technical review and inspection. Consistent with the NRC's 
organizational value of excellence, the task force believes 
that improving the NRC's regulatory framework is an 
appropriate, realistic and achievable goal.
    Chairman Jaczko, what is the problem? I think again my 
friend from Wyoming talked about somebody saying that they were 
defective. I didn't hear the word defective, that the 
regulatory system is defective. What I hear here is they want 
to improve it. Do we have a problem of improving the regulatory 
framework?
    Second of all, let's be clear what we are talking about. 
You have highly knowledgeable people who have made 12 
recommendations. They want you to go forward. No one is saying 
that you have to accept all 12 recommendations tomorrow. What 
they are saying is look at them, analyze them, tell us what you 
like. I think Mr. Ostendorff has said he likes some of them. He 
is ready to go on some of them. Some of them he has concerns 
about. Fine.
    What is the problem, Mr. Chairman, in your judgment, about 
taking these recommendations and starting an immediate 
discussion to see what we like or don't like?
    Mr. Jaczko. I think that is something that we can do. And 
as I said, I think it is something we should be able to get 
done in 90 days.
    Senator Sanders. Ms. Svinicki, what is the problem with 
starting this discussion?
    Ms. Svinicki. I voted within days of receiving the task 
force report to respectfully, I believe, begin that discussion. 
So I don't see that my proposal is to take an inordinate amount 
of time to evaluate them.
    Senator Sanders. So you are ready to get going, then, on 
taking a hard look at these 12 recommendations?
    Ms. Svinicki. Yes, I am.
    Mr. Apostolakis. Yes, the process has started, Senator.
    Senator Sanders. Mr. Magwood.
    Mr. Magwood. Yes, I think I was actually the first one to 
vote.
    Senator Sanders. So you are ready now to begin immediately 
to start a discussion on these 12 recommendations?
    Mr. Magwood. Absolutely.
    Senator Sanders. Mr. Ostendorff.
    Mr. Ostendorff. Senator Sanders, I think we are all ready.
    Senator Sanders. I am glad to hear that.
    Chairman Jaczko, is the process now ready to go? Where has 
the confusion been? What am I missing here?
    Mr. Jaczko. Well, I think there is a bit of, or we are kind 
of stuck I think in developing the process, rather than just 
moving forward to actually begin the discussion and the dialog 
on the recommendations. Right now, what we are talking about is 
the process to have that discussion. And unfortunately, 
certainly with the exception of Commissioner Ostendorff, most 
of my colleagues have weighed in about the process, not about 
specific recommendations.
    Senator Sanders. And what are the differences of opinion 
with regard to process?
    Mr. Jaczko. Well, I think they are not severe. They are 
minor, but I think a big difference is setting an expectation 
for when we can get completed. I have suggested that we work to 
get completed our decisions about all 12 recommendations in 90 
days. I think that is a reasonable timeframe. I think that is 
perhaps what I hear is the biggest point.
    Senator Sanders. Ms. Svinicki, do you think we could do it 
in 90 days?
    Ms. Svinicki. I agree with the Chairman's characterization.
    Senator Sanders. Do you think we can? Well, do you agree 
with him that we can get these recommendations done in 90 days?
    Ms. Svinicki. No, I believe that some of them are complex 
enough that it would not be possible to make a final decision 
on all 12 in 90 days.
    Senator Sanders. Mr. Apostolakis.
    Mr. Apostolakis. I believe we can do it in 90 days. I think 
the major difference, Senator, process-wise is that the 
Chairman's original road map would go directly to public 
meetings of the commission. Some of the members feel that we 
should get senior management evaluation first of the 
recommendations.
    Senator Sanders. OK.
    Mr. Magwood.
    Mr. Magwood. As I see the votes being cast so far, I see a 
great deal of commonality. So I think there is actually a 
consensus coming here quite quickly on the commission to move 
forward with this. And as I stated earlier, I do think some of 
these recommendations can very likely be implemented very 
quickly.
    Senator Sanders. Do you agree with the Chairman that we can 
get moving on this?
    Mr. Magwood. I think we can launch some of them sooner than 
90 days. Others may take longer.
    Senator Sanders. Mr. Ostendorff.
    Mr. Ostendorff. I believe that we can act on most of these 
recommendations within 90 days, perhaps not all. I think 
unfortunately in the press there has been a perception created 
there is great dissension among the commissioners on this 
topic, which I quite frankly don't think is there. I think 
there is a lot more consensus. Everybody is ready to move 
forward. I think there is a lot of agreement on the need for us 
to place this at the highest priority. And I think it clearly 
is.
    Senator Sanders. OK.
    Madam Chair, thank you.
    Senator Boxer. Thank you.
    Let's see, Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    Mr. Jaczko, a traffic policeman's job would be to keep the 
traffic safe, and all five of you said public health and safety 
was your job. But if the traffic cop just stopped all the cars 
from going anywhere, his supervisor might come down and say, 
hey, wait a minute, that is not very creative of you.
    Is there anything within the charge of the commission to 
make it possible for a power plant to create an environment in 
which a nuclear power plant can actually operate and in which a 
new one could actually be built?
    Mr. Jaczko. I don't think there is a charge specifically 
for that motivation for what we do.
    Senator Alexander. That is not a part of your charge, to 
create an environment in which a power plant--if you only 
charge is public health and safety, you would shut them all 
down.
    Mr. Jaczko. No, I think our charge is reasonable assurance 
of public health and safety. So the charge is that we are 
providing an level of assurance that is reasonable.
    Senator Alexander. So there is no economic responsibility? 
No responsibility you have to make sure that a power plant can 
also be operated economically at the same time?
    Mr. Jaczko. No. Our requirements really fall into two 
categories, those things which are kind of the basic tenets of 
safety based on court decisions. The commission is required to 
make those safety decisions irrespective of the economic 
considerations of that decision.
    Certainly, when it goes to the implementation of 
requirements, we can consider the economic impact and look to 
see which is the most cost-beneficial.
    Senator Alexander. You can consider that?
    Mr. Jaczko. At that stage, but not at the basis of 
determining whether something is a fundamental safety 
requirement. At that point, we are bound by a court decision 
from considering economic matters.
    Senator Alexander. Well, is it your objective to create an 
environment in which nuclear power plants could be built?
    Mr. Jaczko. No, my goal is to continue to ensure that we 
have an environment in which nuclear power plants are safe, and 
if new plants are to be built that they will be as safe as our 
requirement dictate.
    Senator Alexander. So you don't have any--what about the 
recommendation of the commission that recommended that you 
complete without delay the design certification of the AP 1000 
and the economically simplified boiling water reactor design?
    Mr. Jaczko. I think that was a recommendation not to 
encourage the commission to take action, but it was a 
recommendation indicating that there was no reason to 
specifically delay action as a result of these recommendations.
    Senator Alexander. Well, that sounds like action to me. Are 
you planning to do it without delay? Does that mean within 90 
days?
    Mr. Jaczko. We are continuing to move forward.
    Senator Alexander. Can you do it within 90 days?
    Mr. Jaczko. We will be fairly close to receiving a final 
rule on the AP 1000 in October, which again is part of the 
reason for us to look at these recommendations in 90 days 
because when we go into the decision of looking at a final 
design for, for instance, the AP 1000, I think it is important 
that we have dispositioned the recommendation so we know what, 
if any, changes would impact those new reactors.
    Senator Alexander. Will considering all of the 
recommendations, all 12, delay your consideration of the design 
certification for the AP 1000 and the new boiling water reactor 
design?
    Mr. Jaczko. Not in my opinion. However, I believe if we 
don't consider the recommendations in a timely way, it could 
have the potential impact of delaying the action on the new 
reactor licensing.
    Senator Alexander. But there is a lot of talk here about 
delay. This report said you should do this without delay. I 
mean, why did they say that?
    Mr. Jaczko. I don't know. That is probably something better 
to task the task force. But again, I think the information that 
is relevant there is that it was useful information for the 
commission to know that there were no immediate issues with the 
design certification.
    Senator Alexander. But let me press you a little further. 
You said you think everything could be done in 90 days. Does 
that include these two designs?
    Mr. Jaczko. What I said is that it is important for the 
commission to disposition the 12 recommendations. I would note 
that the statements related to new reactors are not any of the 
12 recommendations of the task force.
    Senator Alexander. But they are in the report.
    Mr. Jaczko. That is correct.
    Senator Alexander. Yes. And they say without delay, right?
    Mr. Jaczko. That is correct, and we are currently not 
delaying any of the new reactor work. However, as I said, if we 
don't promptly act on these recommendations, it will create 
uncertainty for what actions would be applicable to those new 
reactors, which in my opinion could actually lead to a 
potential delay in that work if we don't disposition these 
recommendations promptly.
    Senator Alexander. Well, as you can tell, my hope is that 
you if you are going to take the Committee's advice to do the 
task force recommendations within 90 days, that you will take 
the task force's advice to complete these design certifications 
without delay.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Senator, I would just call your attention to the mission of 
the NRC, which is clearly stated. The U.S. NRC is an 
independent agency created by Congress. The mission of the NRC 
is to license and regulate the Nation's civilian use of 
byproduct source and special nuclear materials in order to 
protect public health and safety, promote the common defense 
and security, and protect the environment.
    Senator Alexander. Well, Madam Chair, I would think that it 
is still a legitimate question whether a traffic stop should 
stop all the traffic. That is one way to have safety. His 
supervisor still might ask him if he couldn't be a little more 
creative and at least people drive in a safe way.
    Senator Boxer. I don't think that is the right analogy, 
because there is really no analogy when you are dealing with 
nuclear energy.
    Senator Alexander. We have had a lot more death in traffic. 
We tolerate 38,000 traffic deaths every year. We have never had 
one with a nuclear reactor in the United States.
    Senator Boxer. That says a lot for the fact that we have an 
independent agency protecting the health and safety. They said 
the same thing in Japan until recently.
    But in any event, let's move on.
    Obviously, we have differences here just like you have 
differences there. But I want to make the point, and I really 
do want to make this point because I have made it to you 
before. As many differences as we have here, we are friends. 
And we differ. We argue. We debate. I am sensing with you that 
maybe there needs to be a little bit more friendship. Just a 
point spoken as a human being, not as a Senator.
    I think it is important that these differences not become 
personal. If Inhofe and I can do it, we are really good 
friends, then anybody could do it.
    Anyway, here we go. We are moving on and we are going now 
to Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    This is beginning to look like a glee club here, everybody 
happy faces. What you see isn't really what you get.
    Mr. Jaczko, the NRC recently renewed the operating license 
for Hope Creek nuclear plant in New Jersey through 2046. Now, 
what did we learn from the incidents in Japan that you would 
take into account when deciding to grant the extension? And 
which conditions would that influence you to place on it?
    Mr. Jaczko. Well, for any reactor, whether it is a reactor 
that has been operating for 35 years or 45 years, if we adopt 
any of these recommendations, they would likely apply to every 
reactor in the Country, with the exception of some of the 
recommendations like the hardened vent, which would only apply 
to boiling water reactor design.
    So the license renewal process is really about ensuring 
that they have a program in place to deal with the aging of 
components and systems. And nothing that came out of the task 
force specifically touched on those issues, but called, for 
instance, for a number of recommendations dealing with 
earthquakes and those kinds of things that we would expect that 
any plant, Hope Creek being one of them, would be required then 
to implement along with the others.
    Senator Lautenberg. So not too much specific information 
came from the Fukushima failure that influenced your granting 
of the extension of the license?
    Mr. Jaczko. Right. Not at this point, nothing that affected 
the extension, but ultimately if these recommendations are 
adopted, some of them would apply to Hope Creek as an operating 
plant, just like any other plant in the Country.
    Senator Lautenberg. The Mark I containment system that was 
used at Fukushima is also used at U.S. plants including two 
reactors in New Jersey. And you said in June that we didn't 
know what went wrong with the containment system at Fukushima. 
Now, what did this uncertainty factor bring into the recent NRC 
task force recommendations? When do you think we will know all 
we can about what went wrong at the Japanese plant?
    Mr. Jaczko. Well, that could take possibly years. What will 
need to happen is that they will have to decontaminate the 
facility, decontaminate the reactor itself to be able to get in 
and actually analyze and really look at the equipment and try 
and, almost like a criminologist, to try and recover and 
reconstruct what happened in the accident.
    But as the task force laid out, there are some things we 
can do in the short term, in particular with the hardened 
vents. This is an area where the task force recommended an NRC 
requirement. The Mark I containment system, which is similar to 
what they had in Japan, are containment designs that do have 
hardened vents, but they have never been done as a formal 
regulatory requirement. So the task force recommended that we 
do that.
    The advantage of that is that it brings it under our 
inspections and our oversight and all those kinds of things so 
we can monitor it and make sure it is being used effectively. 
So that is something specifically for the Mark I's that has 
been recommended that we take action on.
    Senator Lautenberg. But it would take years, you say, to 
fully understand what took place there?
    Mr. Jaczko. It may.
    Senator Lautenberg. It is hard to imagine because there 
were specific events. We are not talking about the influence on 
the people who were in the area, that kind of thing, but the 
specific trigger for this collapse is pretty much obvious.
    Mr. Jaczko. And that is certainly why you see a number of 
recommendations from the task force. They acknowledge that 
there were some things we don't yet know, and those things will 
need additional study. But clearly, there were at least six 
recommendations they believe we had sufficient information to 
take action on right now.
    Senator Lautenberg. Looking ahead a little bit, you said in 
a 2008 speech that ``I believe that the NRC should develop new 
regulations which require spent fuel to be moved to dry cask 
storage after it has been allowed to cool for 5 years.'` The 
task force recommended enhancements to spent fuel pools, but 
did not advocate requiring dry cask storage.
    Now, given that it falls short of your 2008 proposal, how 
can we be sure that the task force approach here will ensure 
the safest form of storage for spent fuel?
    Mr. Jaczko. I think the task force recommendation is really 
a short-term recommendation, which is precisely to ensure that 
if an event like Fukushima were to happen, the challenges we 
saw there, namely knowing how much water is in the pool and 
making sure that there is sufficient capability to put water 
into the pool to keep it cool, that those things would be 
addressed. That is what they have asked for in the short term.
    And then over the longer term, we can analyze this issue 
more importantly of whether we should have more fuel in pools 
versus in dry cask storage. But they really went at that short-
term issue of making sure that the fuel that is in pools is 
going to be in an enhanced configuration and safer that way.
    Senator Lautenberg. I am being ruled out, so thank you.
    Mr. Jaczko. I answered a little long, I think.
    Senator Boxer. Thank you, Senator.
    Senator Sessions.
    Senator Sessions. Thank you.
    Mr. Jaczko, there have been some complaints about your 
leadership at the commission, as you are aware, in the media. I 
do believe it is important that you reflect the proper role of 
the Chairman, which has I am sure some administrative 
responsibilities. But we have a commission and the commission 
was established to decide as a commission important issues.
    With regard to this emergency power, did you file an 
official document assuming emergency powers of any kind?
    Mr. Jaczko. No, Senator.
    Senator Sessions. How did you announce that you were 
assuming emergency power?
    Mr. Jaczko. It is not something which we have procedures in 
which that is formally done. About three or 4 days into the 
incident, I was made aware that my colleagues on the commission 
had inquired about that. I spoke with the General Counsel. I 
actually asked members of the staff should I make a formal 
declaration of use of emergency powers. And in all honesty, I 
got one or two people who said no, that would just distract you 
from the work that we are doing. And frankly, I got distracted 
by dealing with the emergency response and didn't turn back to 
it until several weeks later.
    Senator Sessions. Well, did you seek a formal opinion from 
counsel as to whether an event on the other side of the world 
would give the American Nuclear Regulatory Commission, the 
commission chairman, the power to assume emergency powers that 
would in some ways diminish, obviously, the influence of the 
other members of the commission?
    Mr. Jaczko. I did seek that and the general counsel advised 
me that it was perfectly appropriate.
    Senator Sessions. Do you have a written opinion to that 
effect?
    Mr. Jaczko. I do have a written opinion. I believe that has 
been provided to the Committee.
    Senator Sessions. With regard to this Committee, well, are 
you still assuming those powers?
    Mr. Jaczko. No, I ceased that weeks or ago or perhaps 
months.
    Senator Sessions. Have you issued a report of what you did 
during the course of that time?
    Mr. Jaczko. As I indicated, we provided situation reports 
to the commission at the beginning of the incident. Those 
situation reports were issued multiple times a day.
    Senator Sessions. No, the Reorganization Act, the statute 
of 1980 said following the conclusion of the emergency, the 
Chairman or member of the commission delegated emergency 
functions under the subsection shall render a complete and 
timely report to the commission on the actions taken during the 
emergency.
    Have you done that?
    Mr. Jaczko. I believe that I have.
    Senator Sessions. Is that available to us?
    Mr. Jaczko. We can provide you with the boxes of situation 
reports which detail the----
    Senator Sessions. Well, no, that is not what the statute 
requires, would you not agree, Mr. Jaczko? Why would you 
hesitate to do a complete and timely report of the actions 
taken during the emergency?
    Mr. Jaczko. I have conferred with the General Counsel and I 
believe that I have more than satisfied the requirements of 
that particular provision. Tremendous information was provided 
to the commission about actions that were taken during the 
response.
    Senator Sessions. Well, I am not arguing about that.
    Mr. Jaczko. In the form of reports.
    Senator Sessions. You have given a lot of information. I 
believe the statute under which you serve requires that the 
Chairman or the emergency official render a complete and timely 
report, not a series of situation reports in a box somewhere. 
Wouldn't you agree that that is what it seems to say plainly?
    Mr. Jaczko. As I read the statute, it is clear that they 
envision one piece of information.
    Senator Sessions. Well, why wouldn't you do that?
    Mr. Jaczko. Because I think we provided much of that 
information already to the commission and I have heard nothing 
from my colleagues on the commission that they have any 
interest in that particular report.
    Senator Sessions. Well, I have an interest in it. The 
people of the United States have an interest in the Chairman of 
the NRC following the plain statutory requirement. So I will 
ask you, what hesitation do you have to put a formal report 
together that says what you did while you assumed emergency 
powers?
    Mr. Jaczko. I will be happy to put that together, and I 
believe I have more provided information to the American people 
through testimony, through a variety of different reports that 
have provided significant information about the actions that 
were taken during this event. But I would be more than happy to 
summarize those in a single report.
    Senator Sessions. I think you should comply with the 
statute.
    Mr. Jaczko. Senator, I would just like to comment that I 
have conferred with the General Counsel and we believe that I 
have more than complied with the statute in that particular 
provision and we can provide you with analysis of that as well.
    Senator Sessions. I believe it requires a single report 
after the conclusion and it is pretty obvious you have not done 
that.
    With regard to this committee, the six members that were 
appointed, you said you didn't select them, but EDO did. Who is 
EDO?
    Mr. Jaczko. The Executive Director for Operations.
    Senator Sessions. And who does that person work for?
    Mr. Jaczko. Nominally to the Chairman.
    Senator Sessions. And so did you know who was being 
selected and were those members discussed with you before they 
were selected?
    Mr. Jaczko. I believe he gave the names to me and I said 
that they were appropriate and I thought they were good 
selections.
    Senator Sessions. Did you make any suggestions to him about 
names that might be on that list?
    Mr. Jaczko. I don't recall whether I did or I didn't.
    Senator Sessions. You don't recall?
    Mr. Jaczko. It was not something that was formally 
presented to me. It was presented to me verbally and I believe 
I signed off on it verbally. I believe that they were a good 
selection, the people that he selected were excellent people. 
And I don't recall if there was at a time a smaller group or a 
larger group. I could check my records, but it was not for me a 
significant decision for me and I trusted the EDO to appoint 
the appropriate people to that task force.
    Senator Sessions. My time is up.
    Thank you, Madam Chairman. I will submit a written question 
concerning how it was that the mission plan that stakeholders 
would be invited to submit suggestions was eliminated from the 
staff effort.
    Senator Boxer. Thank you very much, Senator.
    The last hearing we had here, we did ask the Chairman about 
this in depth about his taking over emergency powers.
    Do not start the clock yet because I have another thing to 
do.
    Senator Cardin, I am just going to put this out here. And 
he would like this in writing, this answer. If the commission 
delays action on task force recommendations on the grounds you 
don't have enough information yet about what happened at 
Fukushima to move forward, does that suggest the NRC also 
doesn't have enough information to move forward with 
relicensing existing reactors or licensing new reactors?
    So that is a question he wants answered.
    We are going to have a second round here. I think Senator 
Carper is coming back and we will have a second round.
    Senator Sanders. I just have one brief question.
    Senator Boxer. I go first.
    Senator Sanders. I am sorry.
    Senator Boxer. And you go after.
    Senator Sanders. You are the Chair.
    Senator Boxer. Thank you for noticing.
    [Laughter.]
    Senator Boxer. OK. Here is where we are. I want all of you 
to know we are going to have you back every 90 days until I 
know what you are doing. And we will take all the answers you 
gave, how much you are going to work to make this happen, a 
half dozen, a dozen, a baker's dozen, whatever it is, and we 
are going to stay on this.
    I will tell you why. After 9/11, we had all these great 
ideas. Everybody thought great, the NRC took decisive action. 
And 9 years later, some of these things went into effect. That 
is not going to happen. Of it is happens, the American people 
are going to know.
    And here is the point. Whether you love nuclear energy, 
don't like it or you are agnostic, it ain't going anywhere if 
it isn't safe. And it is not going anywhere if the public 
doesn't have faith in you. If the public thinks that you are 
somehow not independent, not doing their business, let me tell 
you they won't be happy.
    So I have a question for you Commissioner Svinicki, in your 
July 19th vote on the task force report, you stated, ``The NRC 
finds itself at the appropriate point now to move away from 
small group taskings, including the commission itself 
attempting to labor in isolation.'`
    This is very disturbing to me, very disturbing, the 
commission itself attempting to labor in isolation. You are an 
independent entity. What are you talking about? Isolated from 
who?
    Ms. Svinicki. I meant that term to reinforce the importance 
of having public meetings and stakeholder outreach, meaning 
that the commission ought to have the benefit of----
    Senator Boxer. But you don't think that it is up to 
stakeholders to decide what we should approve? You are an 
independent commissioner, are you not?
    Ms. Svinicki. Yes, I meant that the process should be 
informed by those public----
    Senator Boxer. OK. And Chairman Jaczko has laid out a plan. 
He proposes a process to move forward over the next 90 days to 
receive broad input from NRC staff and external stakeholders 
and to have votes by October 7th, 2011. Do you agree with that?
    Ms. Svinicki. As I indicated in response to your earlier 
question----
    Senator Boxer. I am not asking you an earlier question. I 
am asking you this question. Chairman Jaczko has proposed a 
process to move forward over the next 90 days to address your 
concerns, to receive broad input from NRC staff and external 
stakeholders and to have votes on specific recommendations by 
October 7th, 2011. Do you agree? It seems to match what you 
called for. Now he has put it out there. It echoes what you 
want. Do you agree?
    Ms. Svinicki. I support commission meetings. As I have 
indicated, I am not sure that all the task force 
recommendations could be decided in 90 days.
    Senator Boxer. How many do you think could be decided on in 
90 days? Commissioner Ostendorff has pointed out six. Do you 
agree with him? Can they be decided in 90 days?
    Ms. Svinicki. I had proposed in my July 19th----
    Senator Boxer. Yes or no? Yes or no? Do you agree with him, 
that six of these could be decided in 90 days?
    Ms. Svinicki. I don't have a specific count.
    Senator Boxer. OK. Well let me just say your responses 
disturb me. When you say that the commission isolated. Your 
role by statute is to be independent. Chairman Jaczko has laid 
this out. I want you to know I have 7 million people who live 
within 50 miles of San Onofre. I went there with the wonderful 
friend sitting next to you, Commissioner Apostolakis.
    And you know what they told me? I said, what is your plan 
if there is an emergency. They said, we have to go out on the 
highway. That is all we can do is escape that way.
    Do you ever go to those freeways? You probably may not 
have. You can't even move an inch on some of those freeways. 
And I have 7 million people there. And you are sitting here and 
basically saying you can't move forward.
    And I want to compliment the members of this special task 
force. It is not red tape at all. It is 12 recommendations. 
They make sense. And I am stunned to hear that you--is there 
one that you could say we can move forward before you hear from 
the industry? Anybody? Any one of these you can recommend?
    Ms. Svinicki. I agree that the task force identified the 
correct areas, but I would like the NRC staff that would be 
responsible for carrying out the recommendations, I would like 
to have, respectfully, their input prior to deciding on the 
final form.
    Senator Boxer. That is right. And Chairman Jaczko has laid 
out a path to do just that, but you say you won't be ready in 
October. What is the date you will be ready? What date do you 
think is good to be ready to vote on perhaps a half dozen 
simple ones that everyone else seems to think we could move on? 
What is the date? Give me a date?
    Ms. Svinicki. My objective would be, if some are less 
complex, to move on them before 90 days.
    Senator Boxer. Excellent. Which ones do you think those 
would be? What is less complex? I looked at all of these. Most 
of them don't seem too complex, especially the ones that deal 
with making sure that the plants undertake more safety 
precautions, emergency preparedness and all the rest.
    Which ones do you think are less complex than the others? 
Give me a couple out of the 12.
    Ms. Svinicki. I think that the re-looking at the flooding 
and seismic requirements to make sure that we are using state-
of-the-art knowledge there is a very straightforward 
recommendation.
    Senator Boxer. So you like the recommendation that every 10 
years, the operators of these plants have to come up with new 
assessments as to the safety. That is the recommendation.
    Ms. Svinicki. I was referring to the recommendation that 
tasked the staff to re-look at our basis on seismic.
    Senator Boxer. Well, how about that one? The one I just 
said. It is very clear. They say every 10 years, the operator 
of a plant that is located near flooding and seismic has to do 
a re-look at the problems. Because with science moving forward, 
Commissioner, we have new information all the time as to 
whether the seismic was worse, less harsh. Right now, we are 
very concerned because science shows us that it is moving in 
the wrong direction, more tsunamis, more earthquakes. Harder, 
deeper. What do you think about that? Every 10 years the 
operators there ought to look at that. That is one of the 
recommendations.
    Do you think that is complex? Is that complex?
    Ms. Svinicki. I think that we as a agency constantly look 
at our State of knowledge in those areas, as you suggest.
    Senator Boxer. Do you think it is complex to ask the 
operator who is operating a plant on or near an earthquake 
fault or near a possible tsunami zone to ask them every 10 
years to reassess the safety of their plant? Is that a complex 
recommendation?
    Ms. Svinicki. I would assess that we actually require them 
to be looking at that constantly if there is any new 
information that comes forward as is the case in California 
with faultlines off the coast. We require it even in advance of 
a 10-year period we require it.
    Senator Boxer. Good. So you would support, then, a every 
time there is new science an overall new look at the safety of 
these plants. Is that correct?
    Ms. Svinicki. Yes, I believe we require that now.
    Senator Boxer. Excellent. Well, are you ready to vote on 
that in the next 90 days? What you say you support, are you 
ready to go for that in the next 90 days?
    Ms. Svinicki. Respectfully, my proposal asks that the NRC 
staff come back and provide us with the implementation on these 
recommendations. And I wanted, before I made a final decision, 
to be informed by that input from the NRC.
    Senator Boxer. Well, all I can say is if I am the people of 
California and I am watching this, right now I am not so sure 
about whether I want that plant to operate, because it is very 
simple. And we have our plants there coming in to get 
relicensed. And I urge them not to do that, not even to issue, 
not to move forward until they have studied it.
    You seem to be on my side, but then you have to hear from 
everybody else. I would submit to you it is common sense. There 
are certain things, you should have more belief in what you say 
because it is common sense.
    And I am just saying we have oversight over the work you 
do. Mr. Chairman, I want to compliment you. And I want to say 
to the commissioners who are ready and willing and able to act 
in a timeframe of 90 days, thank you. Because if we don't do 
that, we are not going to see people supporting nuclear power.
    I mean, I take an opposite view of my friends on the other 
side today. The more you convince the people that you are doing 
your job, the more they are going to be comfortable with 
nuclear power. If you give me answers like I have to wait and I 
can't tell, and then you have a situation where it took 9 years 
to put into place the last safety measures, that is ridiculous.
    So as long as I am sitting over here, and I have a voice, I 
am going to continue to call you before us. I mean, I really 
could get used to this because I think you need to know how 
important the work you do is to the safety of the people, first 
and foremost, and to the future of nuclear energy, second.
    Senator Sanders.
    Senator Sanders. Just a few questions.
    Chairman Jaczko, some of my Republican colleagues have kind 
of suggested that you have initiated a Bolshevik coup on the 
NRC. You are running a dictatorship to undermine American 
democratic values. So I just wanted to ask you once again, to 
be clear. Do you believe and does the nonpartisan General 
Counsel of the NRC believe that you have fulfilled the statute 
in terms of your utilization of the emergency powers?
    And in terms of emergency powers, as I understand it, quite 
appropriately after Fukushima, you wanted to make sure that, 
was it 13 plants that we have in this Country that are similar 
design to the Fukushima plants? You quite appropriately wanted 
to make sure that something similar to what happened in Japan 
does not happen in the United States. Is that correct?
    Mr. Jaczko. Well, it certainly was a piece of it. The 
primary focus was really on American citizens in Japan and 
ensuring that we were doing everything we could to protect them 
as they were there. And that was in many ways the prime focus.
    Most of the issues related to how we dealt with U.S. plants 
were really dealt with by the commission when it established 
this task force. So that was how we decided to go forward in 
that way. So I didn't really exercise any authorities with 
regard to domestic facilities.
    Senator Sanders. So it was just to protect the interests of 
American citizens in Japan?
    Mr. Jaczko. Correct.
    Senator Sanders. And does the nonpartisan General Counsel 
believe that you acted appropriately within the statute?
    Mr. Jaczko. I believe that is the case and he is somewhere 
he, so he can probably----
    Senator Sanders. Madam Chair, can we ask the gentleman?
    Senator Boxer. I am sorry. I was distracted by my staff. 
Say again?
    Senator Sanders. May ask the General Counsel, did he act 
within the law?
    Senator Boxer. Yes, you can.
    Please, sir. Please join us.
    Mr. Burns. Senator, my name is Stephen Burns. I am General 
Counsel of the NRC, a career Federal employee.
    The simple answer to your question is I believe the 
Chairman's actions were consistent with the powers that he has 
under the statute. I received an inquiry from his office fairly 
early on in the event. And based on my view and actually an 
assessment of my predecessor's view of actions taken in 
response to 9/11, when there also was not a specific event at a 
U.S. facility, although a threat environment obviously to U.S. 
facilities, my view was that given the intentions of President 
Carter and congressional essentially endorsement under the 
reorganization plan, that his actions were consistent with 
those responsibilities.
    Senator Sanders. And you are, as I understand it, a 
nonpartisan official.
    Mr. Burns. Yes, I am a career official. I am appointed by 
the commission.
    Senator Sanders. Madam Chair, thank you very much.
    And I appreciate you coming up here. I would hope that puts 
an end to this consistent attack against the Chairman.
    Let me ask Mr. Ostendorff, if I could, a question.
    Mr. Ostendorff, my understanding is that you are prepared 
to move pretty quickly on a number of the recommendations of 
the task force. Let me ask you about their first 
recommendation, and that is that the task force recommends 
establishing a logical, systematic regulatory framework for 
adequate protection that appropriately balances defense in 
depth and risk considerations.
    That is an important recommendation. Are you prepared to 
move rapidly on that one?
    Mr. Ostendorff. Senator, thank you for the question. I 
addressed that specific recommendation in my vote in some 
detail. I think it needs to be looked at. I have some concerns 
that trying to embark upon that right now will distract us from 
taking other actions that can and should be taken in the short 
term. But I do support us taking a look at trying to improve 
the framework we currently have.
    Senator Sanders. I just don't quite get that answer. You 
see his as an important recommendation. No one is suggesting 
that you have to swallow hook, line and sinker what people 
recommend. What is the problem with beginning that discussion 
right now?
    Mr. Ostendorff. Senator, I have been around nuclear 
propulsion in the Navy for many, many years and I have seen a 
lot of different efforts taken in the Naval Sea Systems Command 
to improve reactor safety on our nuclear-powered submarines and 
carriers. I have seen how corrective actions are implemented.
    I think this is one that is going to take a few years to 
go, recommendation one. I support moving forward as a separate 
effort to look at recommendation one. But I don't think that 
should hold us up in trying to take shorter-term actions.
    Senator Sanders. OK. Thank you.
    Mr. Chairman, I would yield the floor then.
    Senator Carper.
    [Presiding] All right. We are going to close it out and 
have a couple of questions to ask of our commissioners, and 
then I think we are going to vote here pretty soon.
    This is a question for Commissioner Magwood and 
Commissioner Ostendorff, if I could. It is my understanding 
that the majority of you have asked senior staff to take a 
second look at these recommendations. And you have asked the 
senior staff folks to provide suggestions to the commissions on 
how to proceed with these recommendations.
    Here is my question. And we have talked around this 
already, but I am going to ask you just directly. Since senior 
NRC staff made these recommendations in the first place and now 
you are asking other senior staff to come in and to provide 
suggestions, why is this next step needed? And just explain 
that to me. Why is it needed?
    Mr. Magwood. I will start. First, I think that, well, I 
will speak for myself here, certainly. My perspective is that 
it isn't simply another assessment by NRC staff, although I do 
look forward to seeing what the senior staff thinks about the 
recommendations. For me, the most important thing is to have 
the staff interact with stakeholders in a direct and 
comprehensive fashion to understand what stakeholders' 
responses are to the various recommendations and then see what 
their suggestions are. And then think about that and feed that 
information to the commission.
    So I don't look at it as simply the NRC staff looking at 
what the NRC staff has already said. I think of it as NRC staff 
using the mechanisms we have in place, public meetings, across-
the-table discussions in public venue, of course, to hear 
details about the reaction to the recommendations, and then get 
that back to the commission. That is really the normal in large 
respect what we do every day.
    Senator Carper. Mr. Ostendorff?
    Mr. Ostendorff. Senator Carper, thank you.
    I would agree with Senator Magwood's comment. I will just 
make two points here in addition. One is when I asked our 
Executive Director for Operations, Bill Borchardt, how he 
thought we should proceed, he supported having his office, 
EDO's office and those that work for him, come back and give us 
an integrated prioritized list.
    As I said in my opening statement, that was a key lesson 
learned from Three Mile Island when the agency did not do that. 
I think we will get more bang for the buck implementing those 
safety enhancements that will make a real difference sooner by 
having this prioritized list. We have called for that within 30 
days.
    The second piece is that not all these recommendations are 
equal. And there are some that should be done right now and 
there are some that require a little bit more information.
    Senator Carper. All right. Thank you.
    Chairman Jaczko, a question in orders versus regulatory 
process. Some of the regulatory tools at the commission's 
disposal are the rulemaking process and apparently the issuance 
of orders. Could you just describe or compare both processes 
for us? And for each, what kind of opportunities are there for 
public comment and for input from stakeholders?
    Mr. Jaczko. Well, generally, the orders have more limited 
opportunity for public involvement. They are usually activities 
that either we believe need to be taken in a very prompt period 
of time for safety reasons, or are responses to violations of 
our regulations.
    So they are not a preferred tool because they don't provide 
for the more in-depth public engagement that a regulation 
would. One of the activities that I have challenged the staff 
with since I have been Chairman is to better streamline our 
rulemaking process so that we can use that as a more viable 
tool and get things done in a more timely way, but still have 
that stakeholder input.
    So generally, the orders have less involvement, but it is 
usually a situation in which we feel there is a clear safety 
need that requires prompt action. In most cases when it is 
relating to a specific issue, we usually initiate a rulemaking 
process as well, so that eventually that same content of the 
order gets captured in a regulation.
    Senator Carper. All right. Let me just followup with that, 
if I could. Stakeholders in industry and the environmental 
community have shared and discussed concerns with my own staff 
about moving these recommendations through your order process. 
And what has been the NRC's experience with expedited 
rulemaking and might it have a role to play with some of the 
recommendations adopted by the commission?
    Mr. Jaczko. Well, I think everyone that comes in as 
Chairman of the NRC, and probably every commissioner that comes 
to the NRC, wants the rulemaking process to go forward faster. 
We have mixed success with that, and a lot of it, I think, 
comes down the usual challenges of resources and focus and 
prioritization.
    But we did recently complete a regulation from start to 
finish in about 4 months, having to do with an issue related to 
how we deal with fatigue and workers who may get tired at a 
nuclear power plant.
    So I think there are ways to do it. It would cause us to 
change how we do our regulations, but I think it is doable. In 
my mind, that would be the most preferable way for some of 
these things is to do them in expedited rulemaking that can be 
done in four or 5 months, or something like that, rather than 
the two to 3 years that it typically takes.
    Senator Carper. OK. Well, the vote hasn't started yet and 
so we have it looks like another hour or two.
    [Laughter.]
    Senator Carper. All right. Not that long.
    But what I would like to do is just do something--it is my 
mother calling in to say haste makes waste. Not really.
    What I want to do is, sometimes I like to at the close of a 
hearing ask, you know, we always ask for an opening statement. 
We ask you to respond to our questions. Sometimes, I find it is 
helpful to have a closing statement. I am not going ask for a 
lengthy closing statement, but just maybe something like given 
the conversation we have today or questions that have been 
asked and responses that have been given, this may be a closing 
thought as we prepare to go vote to save the Republic.
    Captain Ostendorff, Chairman Ostendorff, or Commissioner 
Ostendorff, why don't you go first?
    Mr. Ostendorff. Thank you, Senator.
    I would say that we talk all the time. We meet each week 
when we are in town.
    Senator Carper. How often are you all in town?
    Mr. Ostendorff. I would say we probably are all together to 
meet at least 3 weeks out of four.
    Senator Carper. OK.
    Mr. Ostendorff. In individual periods, consistent with the 
Government in the Sunshine Act.
    Senator Carper. OK.
    Mr. Ostendorff. And I would say that it is clearly my 
perception based on discussion with all my colleagues here that 
we all want to move forward quickly; that we all want to do the 
right thing. And I don't think we are as far apart as maybe 
some of the questioning might have suggested. I really think we 
want to do those things, but not all of these are longer-term 
actions. Some are short term. Some are intermediate. And some 
of those will require more information.
    I used the one example on the hardened vents that was asked 
about. I asked the Institute of Nuclear Power Operations on 
July 15th, a senior executive there, do you have sufficient 
information on the hardened vents in order right now to support 
the order recommended by the task force to install those. And 
he said no.
    The task force report itself said that we do not understand 
whether or not the operators at Fukushima actually operated 
these vents.
    I am using that just as a discrete example we can all 
understand. I think we need to explore this area. It could be a 
month from now we have sufficient information to make a 
disposition of that one in a smart manner. But that is just one 
example. There are some things that do require more 
information, more granularity.
    Senator Carper. OK. Thanks.
    Commissioner Magwood, a closing thought or two, please.
    Mr. Magwood. I think Commissioner Ostendorff actually 
covered it. I think he said it quite well.
    The only thing I would add is I believe that we will move 
forward quickly. There is a lot of willingness on the 
commission to get this done. We are taking this very seriously. 
I think we all were talking to each other during the event. I 
think almost immediately, we began to think about what lessons 
were being learned as were watching it unfold on television.
    So I see this as just the conclusion of what started back 
in March. And I feel very positive that we will get this done 
quickly and do the right thing.
    Senator Carper. All right. Good.
    Dr. Apostolakis.
    Mr. Apostolakis. I agree with my colleagues. I think the 
commission will act in a timely manner. It is just the details 
that we have to work out. So I don't see any problem at all.
    Senator Carper. All right.
    Commissioner Svinicki?
    Ms. Svinicki. I agree with what my colleagues have said 
thus far. In summary remarks, I think that there is a lot of 
overlap and commonality in the approach here. And I think that 
want to and can, I believe it is possible to strike the 
appropriate balance between urgency and moving forward, and 
also being thoughtful and getting it right.
    Thank you.
    Senator Carper. Thank you.
    The last word, Mr. Chairman?
    Mr. Jaczko. Well, I would say I appreciate all the comments 
of my colleagues and I think there are far more areas of 
agreement than disagreement. But I do believe strongly that it 
is important for us to disposition these recommendations in 90 
days. And I think that is something that is doable and from 
what I have heard from my colleagues, I think there is perhaps 
more agreement than there is disagreement about that.
    Senator Carper. Good.
    In closing, one of my favorite people to work here with 
here in the Senate is a Republican from Wyoming. His name is 
Mike Enzi. A lot of people in other places don't know him. I 
knew him when I was Governor. We worked on a couple of things 
together then.
    Mike Enzi is the Senior Republican on the Health, 
Education, Labor, Pension Committee. And the Senior Democrat 
for many years was a guy named Kennedy, Ted Kennedy. And they 
were remarkably effective. The Committee was remarkably 
productive. And I would say to Mike Enzi, how does one of the 
most conservative Republicans around here work so productively 
with one of the most liberal Democrats? And you guys just get 
so much done, regardless of who is the Chairman, whether it is 
Kennedy or whether it is Enzi.
    And he said, Ted Kennedy and I subscribe to the 80/20 rule. 
I said: What is that? And he said, the 80/20 rule says we agree 
on about 80 percent of the stuff. We disagree on maybe 20 
percent of the stuff. And what we have decided to do is focus 
on the 80 percent that we agree on. And as a result, we get a 
lot done.
    More times than I can count I call on my colleagues on this 
said of the dais in the Senate to subscribe to the 80/20 rule, 
and if we did that on a consistent basis, I think it would be 
not just a better place to work, but actually probably a better 
Country.
    And I would just urge as it seems like we have about, I 
don't know if it is 80 percent agreement on this stuff, but 
pretty broad agreement on what needs to be acted on more 
quickly, more promptly, and that which needs a little more 
scrubbing.
    And so in deference to my mother, haste does make waste, 
but remembering the words of my father, work does expand to 
fill the amount of time we allocate to a job. So I would ask 
that we move forward on the stuff that we can move forward on, 
and do it as a team. And the stuff that needs a little more 
time, let's take a little more time, but not more time than we 
really need.
    All right. With that having been said, I think we are going 
to wrap this up and you guys go have lunch maybe, and I am 
going to go vote. You all take care.
    This hearing is adjourned. Thank you all for coming.
    [Whereupon, at 12:12 p.m., the committees were adjourned.]

                                 <all>
</pre></body></html>
